No.
__________________________________________________________________
IN THE

Supreme Court of the United States
________________
WALTER E. ACKERMAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
________________
PETITION FOR A WRIT OF CERTIORARI
________________
MELODY BRANNON
Federal Public Defender
DANIEL T. HANSMEIER
Appellate Chief
Counsel of Record
KANSAS FEDERAL PUBLIC DEFENDER
500 State Avenue, Suite 201
Kansas City, Kansas 66101
Phone: (913) 551-6712
Email: daniel_hansmeier@fd.org
Counsel for Petitioner
__________________________________________________________________

QUESTIONS PRESENTED
I. Did the Tenth Circuit err under the law of the case doctrine when it permitted the
government to raise in a second appeal a claim the government waived in the first
appeal?

II. Does the Fourth Amendment’s good-faith exception, as articulated in Illinois v.
Krull, 480 U.S. 340 (1987), apply to an investigatory, rather than an
administrative, statutory scheme? And if so, does Krull’s good-faith exception
apply where the statutory scheme at issue did not expressly authorize the
warrantless search at issue?

i

RELATED PROCEEDINGS
United States v. Ackerman, Tenth Circuit Case No. 14-3265, 831 F.3d 1292 (10th Cir.
Aug. 5, 2016)

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................................................................... i
RELATED PROCEEDINGS.......................................................................................... ii
TABLE OF CONTENTS ............................................................................................... iii
INDEX TO APPENDIX ................................................................................................ iv
TABLE OF AUTHORITIES CITED ............................................................................. v
PETITION FOR WRIT OF CERTIORARI ................................................................... 1
OPINIONS BELOW ...................................................................................................... 1
JURISDICTION............................................................................................................. 1
CONSTITUTIONAL AND OTHER PROVISIONS INVOLVED ................................. 1
STATEMENT OF THE CASE ....................................................................................... 2
REASONS FOR GRANTING THE WRIT .................................................................... 8
I.

The Court should grant this petition to determine whether an appellate
court’s decision that a litigant has waived a claim is law of the case for the
remainder of the litigation. ................................................................................... 9

II.

The Court should grant this petition to resolve Krull’s application to
investigatory schemes that do not expressly authorize warrantless searches. 18

CONCLUSION............................................................................................................. 25

iii

INDEX TO APPENDIX
Appendix A: Tenth Circuit’s Unpublished Decision (February 26, 2020) ................. 1a
Appendix B: District Court’s Order Denying Motion to Suppress (Oct. 30, 2017).. 10a
Appendix C: Tenth Circuit’s Prior Published Decision (August 5, 2016) ............... 25a
Appendix D: District Court’s Order Denying Motion to Suppress (July 1, 2014) .. 61a
Appendix E: Tenth Circuit’s Order Denying Rehearing and Rehearing en Banc... 83a
Appendix F: 18 U.S.C. § 2258A (2012) ..................................................................... 84a

iv

TABLE OF AUTHORITIES CITED

PAGE

Cases
Agostini v. Felton, 521 U.S. 203 (1997) ....................................................................... 14
Almeida–Sanchez v. United States, 413 U.S. 266 (1973) ............................... 18, 20, 23
AngioDynamics, Inc. v. Biolitec AG, 880 F.3d 596 (1st Cir. 2018)............................. 12
Art Midwest, Inc. v. Clapper, 805 F.3d 611 (5th Cir. 2015) ....................................... 13
Astoria Fed. Sav. & Loan Assn. v. Solimino, 501 U.S. 104 (1991) ...................... 13, 14
Baumer v. United States, 685 F.2d 1318 (11th Cir. 1982) ......................................... 14
Berger v. New York, 388 U.S. 41 (1967) .......................................................... 18, 20, 23
Castro v. United States, 540 U.S. 375 (2003) ........................................................ 10, 14
Christianson v. Colt Indust. Operating Corp., 486 U.S. 800 (1988) .......... 9, 10, 14, 15
Concrete Works of Colorado, Inc. v. Denver, 321 F.3d 950 (10th Cir. 2003) .............. 17
Davis v. United States, 417 U.S. 333 (1974) ......................................................... 10, 14
Davis v. United States, 564 U.S. 229 (2011) ......................................................... 18, 24
Dean v. United States, 137 S.Ct. 1170 (2017) ............................................................. 22
Dobbs v. Zant, 506 U.S. 357 (1993) ............................................................................. 14
Gaines-Tabb v. ICI Explosives, USA, Inc., 160 F.3d 613 (10th Cir. 1998) ............ 5, 16
Haynes Trane Serv. Agency, Inc. v. Am. Standard, Inc., 573 F.3d 947
(10th Cir. 2009) ......................................................................................................... 17
Howe v. City of Akron, 801 F.3d 718 (6th Cir. 2015) .................................................. 12
Illinois v. Krull, 480 U.S. 340 (1987) .................................................................. passim
In re Sanford Fork & Tool Co., 160 U.S. 247 (1895) .................................................... 9
In re Wiersma, 483 F.3d 933 (9th Cir. 2007) .............................................................. 12
v

June Med. Servs. v. Russo, 140 S.Ct. 2103 (2020) ...................................................... 11
Kansas v. Ventris, 556 U.S. 586 (2009) ....................................................................... 11
Katz v. United States, 389 U.S. 347 (1967) ............................................................... 3, 4
Laffey v. Northwest Airlines, Inc., 740 F.2d 1071 (D.C. Cir. 1984) ............................ 13
Marbury v. Madison, 5 U.S. (1 Cranch) 137 (1803).................................................... 24
McGirt v. Oklahoma, 140 S.Ct. 2452 (2020) ............................................................... 23
Michigan v. DeFillippo, 443 U.S. 31 (1979) .......................................................... 21, 22
Morris v. Am. Nat. Can Corp., 988 F.2d 50 (8th Cir. 1993) ....................................... 13
Musacchio v. United States, 136 S.Ct. 709 (2016) .................................................. 9, 14
Nw Ind. Tel. Co., Inc. v. FCC, 872 F.2d 465 (D.C. Cir. 1989) .................................... 12
Pepper v. United States, 562 U.S. 476 (2011) ....................................................... 10, 14
Schneckloth v. Bustamonte, 412 U.S. 218 (1973) ....................................................... 24
Sessions v. Dimaya, 138 S.Ct. 1204 (2018) ................................................................. 17
Sibron v. New York, 392 U.S. 40 (1968) .......................................................... 18, 20, 23
State v. Deherrera, 965 P.2d 501 (Utah Ct. App. 1998).............................................. 23
State v. Pettay, 326 P.3d 1039 (Kan. 2014) ................................................................. 23
Taylor v. Sturgell, 553 U.S. 880 (2008) ............................................................. 9, 14, 15
Torres v. Puerto Rico, 442 U.S. 465 (1979) ..................................................... 18, 20, 23
United States v. Camou, 184 U.S. 572 (1902) ....................................................... 10, 13
United States v. Creighton, 639 F.3d 1281 (10th Cir. 2011) ...................................... 17
United States v. Crooked Arm, 853 F.3d 1065 (9th Cir. 2017) ................................... 12
United States v. Crowley, 318 F.3d 401 (2d Cir. 2003) ............................................... 12

vi

United States v. Erwin, 277 F.3d 727 (5th Cir. 2001) ................................................ 12
United States v. Greer, 203 Fed. Appx. 307 (11th Cir. 2006) ..................................... 12
United States v. Hatter, 532 U.S. 557 (2001) .................................................. 10, 11, 14
United States v. Husband, 312 F.3d 247 (7th Cir. 2002) ..................................... 11, 16
United States v. Jacobsen, 466 U.S. 109 (1984)........................................................ 3, 4
United States v. Johnson, 635 F.3d 983 (7th Cir. 2011)............................................. 12
United States v. Jones, 565 U.S. 400 (2012) ................................................................. 4
United States v. Leon, 468 U.S. 897 (1984)..................................................... 18, 19, 20
United States v. Parker, 101 F.3d 527 (7th Cir. 1996) ............................................... 12
United States v. Shrum, 908 F.3d 1219 (10th Cir. 2018) ........................................... 15
United States v. Wallace, 885 F.3d 315 (5th Cir. 2018) ............................................. 22
Vander Boegh v. EnergySolutions, Inc., 772 F.3d 1056 (6th Cir. 2014) .................... 12
Wilmer v. Bd. of Cty. Com’rs of Leavenworth Cty., 69 F.3d 406 (10th Cir. 1995) ..... 15
Ybarra v. Illinois, 444 U.S. 85 (1979) ............................................................. 18, 20, 23
Statutes
18 U.S.C. § 2252(a)(2) .................................................................................................... 2
18 U.S.C. § 2252(a)(4)(B) ............................................................................................... 2
18 U.S.C. § 2258A ........................................................................................................ 22
18 U.S.C. § 2258A (2012) ............................................................................................... 2
18 U.S.C. § 2258A(a)(1) ............................................................................................... 21
18 U.S.C. § 2258A(b)(4) ............................................................................................... 21
18 U.S.C. § 2258A(c) .................................................................................................... 21

vii

18 U.S.C. § 3231 ............................................................................................................. 1
28 U.S.C. § 1254(1) ........................................................................................................ 1
28 U.S.C. § 1291 ............................................................................................................. 1
CyberTipline Modernization Act of 2018, Pub. L. No. 115–395,
132 Stat. 5287, 5289 ................................................................................................. 22
Other Authorities
Fed.R.App.P. 28(a) ....................................................................................................... 17
Fed.R.App.P. 28(b) ....................................................................................................... 17
Fourth Amendment ............................................................................................. passim

viii

PETITION FOR WRIT OF CERTIORARI
Walter Ackerman respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Tenth Circuit.
OPINIONS BELOW
The Tenth Circuit’s unpublished order is available at 804 Fed. Appx. 900, and is
included as Appendix A. The Tenth Circuit’s unpublished order denying panel
rehearing and rehearing en banc is included as Appendix E. The district court’s
published order denying Mr. Ackerman’s motion to suppress is available at 296
F.Supp.3d 1267, and is included as Appendix B. The Tenth Circuit’s earlier published
decision is available at 831 F.3d 1292, and is included as Appendix C. The district
court’s earlier (and since vacated) order denying Mr. Ackerman’s motion to suppress
is available at 2014 WL 2968164, and is included as Appendix D.
JURISDICTION
The district court had jurisdiction under 18 U.S.C. § 3231. The Tenth Circuit had
jurisdiction under 28 U.S.C. § 1291. The Tenth Circuit affirmed the denial of Mr.
Ackerman’s motion to suppress on February 26, 2020. The Tenth Circuit denied the
petition for rehearing on March 23, 2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND OTHER PROVISIONS INVOLVED
The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated,
and no Warrants shall issue, but upon probable cause, supported by Oath
or affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
1

18 U.S.C. § 2258A (2012) (full text included as Appendix F).
STATEMENT OF THE CASE
1. In April 2013, Walter Ackerman sent an email from his AOL account. Pet. App.
2a. Attached to the email were four images of child pornography. Id. Because AOL’s
automated system identified one image as child pornography (based on a matching
hash value to known child pornography), the email never made it to its intended
recipient. Pet. App. 2a, 26a-27a. Instead, “AOL instantly stopped delivery” and
terminated Mr. Ackerman’s email account. Pet. App. 26a.
The next day, AOL’s system created a report (which included all four images of
child pornography) and forwarded the report to the National Center for Missing and
Exploited Children (NCMEC). Without first obtaining a warrant, a NCMEC
employee reviewed the report, determined that the email contained four images of
child pornography, and forwarded the report to law enforcement. Pet. App. 2a-3a,
27a. The NCMEC report led to a search warrant for Mr. Ackerman’s home, which
unearthed more child pornography. Pet. App. 3a.
2. In November 2013, a federal grand jury in Kansas returned a two-count
indictment, charging Mr. Ackerman with distribution of child pornography, 18 U.S.C.
§ 2252(a)(2) (Count One), and possession of child pornography, 18 U.S.C.
§ 2252(a)(4)(B) (Count Two). Pet. App. 3a, 13a. Mr. Ackerman moved to suppress the
incriminating evidence, alleging that NCMEC’s warrantless search of his AOL email
account (and the one email in particular) violated the Fourth Amendment. Pet. App.
3a. In response, the government argued that Mr. Ackerman lacked standing to
challenge the search of his email, that NCMEC was not a government entity or agent
2

subject to the Fourth Amendment, that the search of the email did not meaningfully
expand AOL’s private search, and that, if nothing else, the good-faith exception would
save the unconstitutional search. See Pet. App. 58a-59a, 68a.
3. In July 2014, the district court denied the motion. Pet. App. 61a. The district
court assumed that Mr. Ackerman had standing to challenge the search, but
determined that: (1) NCMEC was not a governmental entity subject to the Fourth
Amendment; and (2) even if it was, the private search doctrine saved the search
because NCMEC’s search did not meaningfully expand AOL’s private search. Pet.
App. 68a, 71a-80a. The district court declined to address the good-faith exception.
Pet. App. 68a. Mr. Ackerman entered a conditional guilty plea, reserving the right to
appeal the denial of the motion to suppress. Pet. App. 3a.
4. On appeal, the Tenth Circuit reversed. Pet. App. 25a-60a. In an opinion
authored by then-Judge Gorsuch, the Tenth Circuit held that NCMEC qualified as a
governmental entity (or agent) for Fourth Amendment purposes. Pet. App. 28a-49a.
The Tenth Circuit also held that the private search doctrine could not save the
warrantless search because NCMEC’s search exceeded the scope of AOL’s private
search. Pet. App. 51a-58a (citing, inter alia, United States v. Jacobsen, 466 U.S. 109
(1984)).
The government sought affirmance on two alternate grounds: (1) that no “search”
occurred because Mr. Ackerman did not have a reasonable expectation of privacy in
his email, citing Katz v. United States, 389 U.S. 347 (1967), Gov’t Br. 16-25; and (2)
that the good-faith exception saved the unconstitutional search, id. 43. But rather
than brief the good-faith-exception issue, the government summarily stated that it
3

“raised that argument at the district court, and asserts those arguments have been
preserved as responsive to this appeal.” Id. 43.
The Tenth Circuit declined to affirm on either alternate ground. On the first, the
Court considered whether a search occurred under either a privacy theory (Katz) or
a trespass theory (United States v. Jones, 565 U.S. 400 (2012)). The Court declined to
hold that NCMEC did not search Mr. Ackerman’s email under Katz, instead
determining that any attempt to do so would be “imprudent” without factual findings
from the district court. Pet. App. 51a.
With respect to Jones’s trespass theory, the Tenth Circuit noted that Mr.
Ackerman’s case dealt “with the warrantless opening and examination of
(presumptively) private correspondence that could have contained much besides
potential contraband for all anyone knew. And that seems pretty clearly to qualify as
exactly the type of trespass to chattels that the framers sought to prevent when they
adopted the Fourth Amendment.” Pet. App. 57a.
So it seems that, whether we analyze the “search” question through the lens of
the government’s preferred authority – Jacobsen and Katz – or through the
lens of the traditional trespass test suggested by Jones, they yield the same
(and pretty intuitive) result: NCMEC conducted a “search” when it opened and
examined Mr. Ackerman’s email.
Pet. App. 58a.
The Tenth Circuit also referenced the “third party doctrine,” noting individuals
might lack standing to challenge searches of “materials they choose to share with
third parties.” Pet. App. 50a. The Tenth Circuit noted that the government had
“preserved” its third-party-doctrine claim for further review. Pet. App. 59a.
4

The Tenth Circuit did not address the good-faith exception, holding instead that
the government waived the claim by inadequately briefing it:
Indeed, the closest the government comes to briefing any of these questions is
to tell us it incorporates by reference the good faith arguments it presented to
the district court. Even though this court has repeatedly instructed (both in
rule and case law) that this sort of mechanical “[i]ncorporating by reference
portions of lower court or agency briefs or pleadings” is insufficient to preserve
a point for appellate review.
Pet. App 58a-59a (citing 10th Cir. R. 28.4 (which has been renumbered as Rule
28.3(B)) and Gaines-Tabb v. ICI Explosives, USA, Inc., 160 F.3d 613, 623-624 (10th
Cir. 1998)).
In remanding for further proceedings, the Tenth Circuit commented: “Surely hard
questions remain to be resolved on remand, not least the question whether the thirdparty doctrine might preclude Mr. Ackerman’s claim to the Fourth Amendment’s
application.” Pet. App. 59a. And in addressing the “important work” done by NCMEC,
the Tenth Circuit also surmised that other Fourth Amendment doctrines might
permit it to “continue [that work] without interruption.” Id. The Tenth Circuit listed
the third-party doctrine (a claim the government preserved for further review in this
case), the private search doctrine (a claim rejected here), “exigent circumstances or
attenuation doctrine or special needs doctrine” (doctrines never raised here), and the
good-faith exception (a claim waived by the government on appeal), as “potential”
avenues to “avoid suppression in at least some cases.” Pet. App. 59a-60a. The Tenth
Circuit ended with this:
But even if not a single one of these potential scenarios plays out – and we do
not mean to prejudge any of them – we are confident that NCMEC’s law
5

enforcement partners will struggle not at all to obtain warrants to open emails
when the facts in hand suggest, as they surely did here, that a crime against a
child has taken place.
Pet. App. 60a.
5. On remand, the government claimed that Mr. Ackerman lacked standing to
challenge NCMEC’s warrantless search of his email because Mr. Ackerman did not
have a reasonable expectation of privacy in the email. Pet. App. 15a. The government
disavowed any reliance on the third-party doctrine, however, making clear that its
argument was not that Mr. Ackerman generally lacked a reasonable expectation of
privacy in his email account. Id. Instead, the government claimed that Mr.
Ackerman’s Fourth Amendment rights in his emails ended when AOL terminated his
email account. Id. Alternatively, the government attempted to resurrect its goodfaith-exception argument, claiming that the good-faith exception applied in light of
the statutory scheme governing NCMEC. Pet. App. 19a-20a.
In response, Mr. Ackerman noted that the Tenth Circuit had already determined
that a Fourth Amendment search occurred under a traditional trespass theory. And
while the Tenth Circuit remanded to determine whether the third-party doctrine
required a contrary holding, the government on remand expressly declined to invoke
the third-party doctrine. Pet. App. 15a. Mr. Ackerman also explained that, under a
privacy-rights theory, he had both a subjective and an objective expectation of privacy
in his electronic mail. Pet. App. 14a-15a.
Finally, Mr. Ackerman argued that the good-faith exception could not save this
unconstitutional search for two reasons. Pet. App. 18a-23a. First, because the Tenth
6

Circuit rejected the government’s good-faith-exception argument in the first appeal,
the law of the case doctrine precluded the district court from revisiting that issue.
Pet. App. 18a-19a. Second, on the merits, the statutory scheme at issue here did not
permit application of the good-faith exception because the scheme does not authorize
warrantless searches of emails and because the statutes created an investigatory
scheme, not an administrative scheme. Pet. App. 21a-23a.
6. The district court denied the motion a second time. Pet. App. 10a-24a. The
district court identified three “hard questions” that it believed were at issue on
remand: the third-party doctrine; “the question of whether Defendant had a
reasonable expectation of privacy”; and the good-faith exception. Pet. App. 13a-14a.
The district court acknowledged that the government abandoned the third-party
doctrine. Pet. App. 15a. The district court further found that Mr. Ackerman had a
subjective expectation of privacy in his email. Id. But the district court found that
Mr. Ackerman did not have an objectively reasonable expectation of privacy in his
email, and, thus, that he lacked standing to challenge the search. Pet. App. 11a, 15a18a. In doing so, however, the district court did not address Mr. Ackerman’s trespasstheory claim (or the Tenth Circuit’s discussion of that theory in the earlier appeal).
Alternatively, the district court found that the good-faith exception would save
any unconstitutional search. Pet. App. 18a-24a. The district court found that the lawof-the case doctrine did not apply because the district court did not address the goodfaith exception in its initial order. Pet. App. 19a. The district court also determined
that the good-faith exception applied because “NCMEC relied on a statutory scheme
allowing it to perform a review.” Pet. App 23a.
7

7. Mr. Ackerman appealed again. The Tenth Circuit “assume[d], for the sake of
argument, that Ackerman has shown a constitutional violation.” Pet. App. 4a. But
the Tenth Circuit relied on the good-faith exception to save the unconstitutional
search. Pet. App. 5a-9a. The Tenth Circuit held that the claim was not precluded by
the law of the case doctrine because the government did not waive the claim in the
first appeal. Pet. App. 5a. This was so because the Tenth Circuit “do[es] not ‘ordinarily
require appellees to raise every possible ground for affirmance in their appellate
briefs.’” Pet. App. 5a. And even if the claim was waived on appeal, the district court
could still consider it because the Tenth Circuit “did not render a decision on the
merits of the good-faith exception” in the prior appeal. Pet. App. 6a.
The Tenth Circuit then held that “NCMEC acted in objectively reasonable reliance
on a statutory scheme when it inspected the digital copy of Ackerman’s April 22
email.” Pet. App. 7a (citing Illinois v. Krull, 480 U.S. 340, 342 (1987)). The Tenth
Circuit further noted that “no court had even considered NCMEC a governmental
entity or agent of law enforcement” prior to the Tenth Circuit’s earlier decision. Pet.
App. 8a. The Tenth Circuit did not address Mr. Ackerman’s argument that Krull
applied only to administrative, and not investigative, searches. Pet. App. 7a-8a. The
Tenth Circuit denied Mr. Ackerman’s petition for rehearing en banc. Pet. App. 83a.
This timely petition follows.
REASONS FOR GRANTING THE WRIT
The Tenth Circuit permitted the government to relitigate a waived claim in a
second appeal. Pet. App. 5a-6a. That decision departs from well-established law-ofthe-case principles and conflicts with several decisions from the other courts of
8

appeals. This Court should grant this petition to resolve the conflict and to correct
the Tenth Circuit’s error.
The Tenth Circuit also extended Illinois v. Krull in two significant respects: it
applied that decision to: (1) an investigatory, rather than administrative, statutory
scheme that (2) did not expressly authorize the search at issue. Pet. App. 6a-8a. The
first extension permits legislatures to effectively rewrite the Fourth Amendment. The
second extension impermissibly permits the government to interpret legislative
silence as permission to search. Because of the importance of this issue, and the need
to provide guidance to the lower courts and government officials, review is necessary.
I. The Court should grant this petition to determine whether an appellate
court’s decision that a litigant has waived a claim is law of the case for
the remainder of the litigation.
1. The law of the case doctrine “promotes the finality and efficiency of the judicial
process by protecting against the agitation of settled issues.” Christianson v. Colt
Indust. Operating Corp., 486 U.S. 800, 816 (1988). At its core, the doctrine precludes
“parties from contesting matters that they have had a full and fair opportunity to
litigate.” Taylor v. Sturgell, 553 U.S. 880, 892 (2008). “[N]o question, once considered
and decided by [a higher] court, can be re-examined at any subsequent stage of the
same case.” In re Sanford Fork & Tool Co., 160 U.S. 247, 259 (1895). Thus, “when a
court decides upon a rule of law, that decision should continue to govern the same
issues in subsequent stages in the same case.” Musacchio v. United States, 136 S.Ct.
709, 716 (2016) (quotations omitted). A typical example of the doctrine’s application
“is an appellate court’s decision not to depart from a ruling that it made in a prior
appeal in the same case.” Id. Without the doctrine, parties could judge-shop via
9

“repeated appeals.” United States v. Camou, 184 U.S. 572, 574 (1902).
But the law of the case doctrine has exceptions. See Castro v. United States, 540
U.S. 375, 384 (2003). The doctrine does not apply where “the court is ‘convinced that
[its prior decision] is clearly erroneous and would work a manifest injustice.’” Pepper
v. United States, 562 U.S. 476, 506-507 (2011). Thus, the doctrine would not apply,
for instance, where there has been an intervening change in the law. Davis v. United
States, 417 U.S. 333, 342 (1974). Nor would the doctrine “shield an incorrect
jurisdictional decision.” Christianson, 486 U.S. at 819.
Moreover, the law of the case doctrine does not apply when a court had no
authority to decide the earlier appeal. United States v. Hatter, 532 U.S. 557, 566
(2001). In Hatter, the law of the case doctrine did not apply because, “when this case
previously was before [the Court], due to absence of a quorum, [the Court] could not
consider either the merits or whether to consider those merits through grant of a writ
of certiorari.” Id. (emphasis added).
2. Below, the Tenth Circuit adopted an additional exception to the law of the case
doctrine. According to the Tenth Circuit, the law of the case doctrine does not apply
when an appellate court disposes of an issue on procedural grounds. Pet. App. 5a-6a.
This is so because, when that happens, the court does “not render a decision on the
merits.” Pet. App. 6a. Because the Tenth Circuit in the earlier appeal refused to
consider the good-faith exception (“because it was insufficiently briefed”), the law of
the case doctrine did not preclude the government from arguing good-faith on remand
or in the second appeal. Pet. App. 6a. The Tenth Circuit gleaned this rule from its
own precedent. Pet. App. 5a-6a.
10

3. The Tenth Circuit’s decision finds no support in this Court’s precedents. Just
the opposite. While this Court in Hatter spoke in terms of “a hearing on the merits,”
the decision itself makes clear that a court need not actually reach the merits in order
to establish the law of the case. 532 U.S. at 566. It was the “absence of a quorum,”
which prevented this Court from considering the case at all, that precluded the
application of the law of the case doctrine in Hatter. Id. Had this Court considered
“either the merits or whether to consider those merits,” the law of the case doctrine
would have applied. Id. (emphasis added).
And in Kansas v. Ventris, 556 U.S. 586, 590 (2009), this Court considered a party’s
concession as the law of the case. When a court accepts a party’s concession, it does
not “render a decision on the merits” in the way in which the Tenth Circuit used that
phrase below. Pet. App. 6a. It simply accepts the point, without analyzing its
correctness, and moves on. Ventris, 556 U.S. at 590; see also June Med. Servs. v.
Russo, 140 S.Ct. 2103, 2117 (2020) (“The State’s unmistakable concession of standing
. . . bars our consideration of it here.”). If doing that constitutes law of the case, then
surely a decision that actually addresses a claim, even if on procedural grounds, is
law of the case. The Tenth Circuit’s contrary decision conflicts with this Court’s
precedents.
4. Other courts of appeals have expressly rejected a procedural-grounds exception
to the law of the case doctrine. The Seventh Circuit, for instance, “does not remand
issues to the district court when those issues have been waived or decided.” United
States v. Husband, 312 F.3d 247, 250 (7th Cir. 2002). “A party cannot use the accident
of a remand to raise in a second appeal an issue that he could just as well have raised
11

in the first appeal because the remand did not affect it.” United States v. Parker, 101
F.3d 527, 528 (7th Cir. 1996). In United States v. Johnson, 635 F.3d 983, 987 (7th Cir.
2011), the Seventh Circuit applied the law of the case doctrine to preclude a party
from raising an inadequately briefed issue on remand. The Tenth Circuit’s decision
below is in direct conflict with this decision.
The First, Second, Fifth, Sixth, Ninth, Eleventh, and D.C. Circuits also hold
that the law of the case doctrine precludes a party from relitigating a waived claim
on remand or in a subsequent appeal. AngioDynamics, Inc. v. Biolitec AG, 880 F.3d
596, 598 (1st Cir. 2018) (“Because Defendants’ Rule 60 argument essentially rehashes
the injunction-expiration argument that we deemed waived in Biolitec IV, the law of
the case doctrine forecloses reconsideration of the former.”); United States v. Crowley,
318 F.3d 401, 420 (2d Cir. 2003) (issue deemed waived in prior appeal barred by law
of the case in second appeal); United States v. Erwin, 277 F.3d 727, 733 (5th Cir. 2001)
(same); Howe v. City of Akron, 801 F.3d 718, 739 (6th Cir. 2015) (same); Vander Boegh
v. EnergySolutions, Inc., 772 F.3d 1056, 1071-1072 (6th Cir. 2014) (applying law of
the case to a finding in a previous appeal where the party failed to present evidence
to support the claim in the previous appeal); In re Wiersma, 483 F.3d 933, 941 (9th
Cir. 2007) (dismissal of appeal for lack of prosecution was law of the case; “the BAP’s
decision to revisit a previously dismissed issue was improper”); see also United States
v. Crooked Arm, 853 F.3d 1065, 1069 (9th Cir. 2017) (applying law of the case to a
claim waived in a prior appeal); United States v. Greer, 203 Fed. Appx. 307, 308-309
(11th Cir. 2006) (unpublished) (same); Nw Ind. Tel. Co., Inc. v. FCC, 872 F.2d 465,
471 (D.C. Cir. 1989) (issue rejected on procedural grounds in first appeal could not be
12

raised in second appeal under law of the case principles); Laffey v. Northwest Airlines,
Inc., 740 F.2d 1071, 1093 (D.C. Cir. 1984) (issue waived in first appeal was barred by
law of the case doctrine in second appeal); see also Art Midwest, Inc. v. Clapper, 805
F.3d 611, 614-615 (5th Cir. 2015) (refusing to consider inadequately briefed claims
from first appeal in second appeal).
Similarly, the Eighth Circuit has held that the law of the case doctrine precludes
a party from relitigating a waived claim. Morris v. Am. Nat. Can Corp., 988 F.2d 50,
52 (8th Cir. 1993). In Morris, the Eighth Circuit summed up the state of the law on
this issue:
no court has ever applied the exceptions to the law of the case doctrine
differently when the law was based on a waived issue as opposed to an issue
formally presented to the court. The law of the case as a result of waiver is no
different than a matter that becomes the law of the case as a result of
argument.
Id. The Tenth Circuit disagrees on this point. Pet. App. 5a-6a. This Court should
grant this petition to resolve the conflict.
5. This issue is also exceptionally important. As this Court has recognized, “[a]
losing litigant deserves no rematch after a defeat fairly suffered.” Astoria Fed. Sav.
& Loan Assn. v. Solimino, 501 U.S. 104, 107 (1991). Without the law of the case
doctrine, “there would be no end” to litigation because “every obstinate litigate could,
by repeated appeals, compel a court to listen to criticisms on their opinions, or
speculate on chances from changes in its members.” Camou, 184 U.S. at 574. The
Tenth Circuit’s waived-claim exception to the law of the case doctrine upsets this
underlying rationale for the doctrine. A litigant, like the government here, who raises
13

an issue on appeal, but loses that issue via insufficient briefing, “deserves no
rematch.” Astoria, 501 U.S. at 107. “They chose their trial strategy, litigated
accordingly, and lost. They are not now entitled to resurrect a previously abandoned
issue.” Baumer v. United States, 685 F.2d 1318, 1321 (11th Cir. 1982). Yet, with the
Tenth Circuit’s waived-claim exception, the government (and any other litigant who
raises an issue inadequately, but the Court remands for other reasons) gets an
unearned second bite at the apple. The Tenth Circuit’s exception undermines “the
finality and efficiency of the judicial process” by permitting the relitigation of “settled
issues.” Christianson, 486 U.S. at 816.
This Court often grants certiorari to define the contours of the law-of-the-case
doctrine. See, e.g., Musacchio, 136 S.Ct. at 716; Pepper, 562 U.S. at 481; Taylor, 553
U.S. at 892; Castro, 540 U.S. at 384; Hatter, 532 U.S. at 565; Agostini v. Felton, 521
U.S. 203, 236 (1997); Davis, 417 U.S. at 342; Dobbs v. Zant, 506 U.S. 357, 358 (1993);
Christianson, 486 U.S. at 816. This Court’s guidance is needed again. Otherwise, the
circuit split on this issue undermines uniformity and permits certain litigants to
escape the law of the case based solely on geography. Review is necessary.
6. The Tenth Circuit’s decision is also incorrect. It is incorrect because, as just
explained, there is no waived-claim exception to the law of the case doctrine. As most
other courts of appeals recognize, see Section I(4) supra, under the law of the case
doctrine, a procedural disposition is just as much “on the merits” as any other
disposition, Hatter, 532 U.S. at 566. The Tenth Circuit committed a serious error in
creating such an exception.
Indeed, the precedent relied on by the Tenth Circuit to craft this exception to the
14

law of the case doctrine does not actually support the exception. Pet. App. 5a (citing
Wilmer v. Bd. of Cty. Com’rs of Leavenworth Cty., 69 F.3d 406, 409 (10th Cir. 1995)).
The law of the case doctrine did not apply in Wilmer because the issue in the
subsequent appeal was jurisdictional. 69 F.3d at 410. That is a recognized exception
to the law of the case doctrine. Christianson, 486 U.S. at 819. The Tenth Circuit’s
extension of Wilmer to the non-jurisdictional context was both unexplained and
unwarranted. Pet. App. 5a-6a.
The Tenth Circuit’s decision conflicts with the general principles underlying the
law of the case doctrine. The doctrine is supposed to preclude “parties from contesting
matters that they have had a full and fair opportunity to litigate.” Taylor, 553 U.S.
at 892. But here, the government had that opportunity, lost, and yet was still
permitted to relitigate the good faith exception. The government’s waived claim was
somehow unwaived by the district court and the Tenth Circuit below. And while the
law of the case doctrine is supposed to “promote[] the finality and efficiency of the
judicial process by protecting against the agitation of settled issues,” Christianson,
486 U.S. at 816 (quotation omitted), the government was allowed to relitigate its
good-faith-exception issue in this case in front of a different panel of judges.
This Court should not allow a party to benefit from the accident of a remand. That
is what has happened in this case. The Tenth Circuit could have reversed outright in
Ackerman I. See United States v. Shrum, 908 F.3d 1219, 1239-1240 (10th Cir. 2018)
(reversing outright a Fourth Amendment denial where the parties agreed that the
case should be remanded for further proceedings). Had it done so, the government
could not have possibly argued that the good-faith-exception claim was open to it on
15

remand. It should not be allowed to make that argument simply because a remand
was necessary on an unrelated claim. Husband, 312 F.3d at 250. This Court’s review
is necessary.
7. Finally, this case is an excellent vehicle to resolve the Circuit split. Mr.
Ackerman consistently argued below, in the district court and on appeal, that the law
of the case doctrine precluded the courts from considering the good-faith exception on
remand and in the second appeal. Pet. App. 5a-6a, 18a-19a. Both the district court
and the Tenth Circuit resolved that claim on the merits. Id. The claim was properly
preserved, and there are no procedural impediments to its resolution in this case.
The Tenth Circuit’s “alternate” finding that the government did not waive the
claim in the first appeal, Pet. App. 5a, should not deter this Court from granting
certiorari. The alternate finding is plainly incorrect. In the first appeal, then-Judge
Gorsuch refused to consider the government’s good-faith-exception claim because the
government did not brief the issue properly. Pet. App. 59a. The opinion cites GainesTabb, and Gaines-Tabb holds that “arguments not set forth fully in the opening brief
are waived.” (emphasis added). The subsequent Tenth Circuit panel had no basis to
ignore then-Judge Gorsuch’s prior opinion.
The subsequent Tenth Circuit panel’s distinction between appellees and
appellants also contravenes then-Judge Gorsuch’s earlier opinion. That opinion cites
10th Cir. R. 28.4 (which has been renumbered as 10th Cir. R. 28.3(B)). Pet. App. 59a.
That rule – which prohibits exactly what the government did in the first appeal
(“[i]ncorporating by reference portions of lower court . . . briefs or pleadings”) – applies
to appellants and appellees. 10th Cir. R.28.3(B) (referencing Federal Rules of
16

Appellate Procedure 28(a) and 28(b), the latter of which governs an appellee’s brief).
Thus, it is irrelevant whether the Tenth Circuit does not “ordinarily require appellees
to raise every possible ground for affirmance in their appellate briefs.” Pet. App. 5a.
If an appellee raises a ground for affirmance, but does so insufficiently, the claim is
waived. Concrete Works of Colorado, Inc. v. Denver, 321 F.3d 950, 979 n.14 (10th Cir.
2003) (holding that an appellee’s argument was waived where the appellee merely
“incorporate[d] arguments made in another separate document”). Then-Judge
Gorsuch’s opinion holds as much. Pet. App. 59a.
Nor does the law of the case doctrine apply differently to appellees. The case cited
by the Tenth Circuit below makes that point explicitly. – Haynes Trane Serv. Agency,
Inc. v. Am. Standard, Inc., 573 F.3d 947, 963 (10th Cir. 2009) (noting that the law of
the case doctrine “has properly been applied to appellees in some cases”). Haynes
actually invoked the doctrine to hold that the appellees in that case waived a claim
that was not raised in an initial appeal. Id. If a claim not raised by an appellee in a
prior appeal is the law of the case, then a fortiori, a claim that is actually addressed
in a prior appeal is the law of the case. See also United States v. Creighton, 639 F.3d
1281, 1289 n.6 (10th Cir. 2011) (citing Haynes for the proposition that an appellee
(there, a criminal defendant) who failed to raise an alternate ground for affirmance
in a prior government interlocutory appeal might have waived the ability to raise that
claim in the second appeal).
In the end, courts should not rescue “a party as able to protect its interests as the
federal government” from its litigation blunders. See Sessions v. Dimaya, 138 S.Ct.
1204, 1232 (2018) (Gorsuch, J., concurring). That is exactly what the Tenth Circuit
17

did below. Because that incorrect decision conflicts with decisions from almost every
other court of appeals, review is necessary.
II. The Court should grant this petition to resolve Krull’s application to
investigatory schemes that do not expressly authorize warrantless
searches.
1. In United States v. Leon, 468 U.S. 897, 913-923 (1984), this Court recognized a
good-faith exception to the Fourth Amendment’s exclusionary rule where officers
reasonably rely on a subsequently invalidated search warrant. Leon’s test is an
objective one. Id. at 923 n.23. The “good-faith inquiry is confined to the objectively
ascertainable question whether a reasonably well trained officer would have known
that the search was illegal despite the magistrate’s authorization.” Id. A reasonably
well-trained officer must have “a reasonable knowledge of what the law prohibits,”
Id. at 919 n.20, and the officer is expected to conform her conduct to Fourth
Amendment precedent, Davis v. United States, 564 U.S. 229, 241 (2011).
Footnote 8 in Leon recognized a different rule with respect to investigatory search
statutes (i.e., “searches carried out pursuant to statutes, not yet declared
unconstitutional, purporting to authorize searches and seizures without probable
cause or search warrants”). 468 U.S. at 912 n.8. There, “the exclusionary rule requires
suppression of evidence.” Id. (citing Ybarra v. Illinois, 444 U.S. 85 (1979); Torres v.
Puerto Rico, 442 U.S. 465 (1979); Almeida–Sanchez v. United States, 413 U.S. 266
(1973); Sibron v. New York, 392 U.S. 40 (1968); Berger v. New York, 388 U.S. 41
(1967)). “Those decisions involved statutes which, by their own terms, authorized
searches under circumstances which did not satisfy the traditional warrant and
probable-cause requirements of the Fourth Amendment.” 468 U.S. at 912 n.8. This
18

Court in Leon stated that the “substantive Fourth Amendment principles announced
in those cases [was] fully consistent with” the holding in Leon. Id.
Three years later, in a 5-4 decision, this Court held that the good-faith exception
applies to administrative search statutes (i.e., “when officers act in objectively
reasonable reliance upon a statute authorizing warrantless administrative searches,
but where the statute is ultimately found to violate the Fourth Amendment”). Krull,
480 U.S. at 342, 349 (emphasis added). “Unless a statute is clearly unconstitutional,
an officer cannot be expected to question the judgment of the legislature that passed
the law.” Id. at 349-350. Thus, the exclusionary rule does not apply when an officer
“has simply fulfilled his responsibility to enforce the statute as written.” Id. at 350.
In crafting this rule, the Court noted that “[l]egislatures generally have confined
their efforts to authorizing administrative searches of specific categories of businesses
that require regulation, and the resulting statutes usually have been held to be
constitutional.” Id. at 351 (emphasis added). According to the Court, “[l]egislators
enact statutes for broad, programmatic purposes, not for the purpose of procuring
evidence in particular criminal investigations.” Id. at 352.
This Court noted that the good-faith exception would not save all administrative
searches conducted pursuant to statutes:
A statute cannot support objectively reasonable reliance if, in passing the
statute, the legislature wholly abandoned its responsibility to enact
constitutional laws. Nor can a law enforcement officer be said to have acted in
good-faith reliance upon a statute if its provisions are such that a reasonable
officer should have known that the statute was unconstitutional.
Id. at 355. The good-faith exception saved the administrative searches at issue in
19

Krull, however, because the statute was “directed at one specific and heavily
regulated industry, the authorized warrantless searches were necessary to the
effectiveness of the inspection system, and licensees were put on notice that their
businesses would be subject to inspections pursuant to the state administrative
scheme.” Id. at 359.
Krull did not purport to overrule the investigatory search cases cited by this Court
in footnote 8 in Leon. See id. at 355 n.8. The statutes at issue in those cases permitted
warrantless investigatory, not administrative, searches (or seizures). See Ybarra, 444
U.S. at 87 (statute authorizing officers to detain any person found on premises being
searched pursuant to a warrant); Torres, 442 U.S. at 466-467, 471 (statute that
allowed police to search luggage of any person arriving at an airport or pier in Puerto
Rico, without any requirement of probable cause, violated Fourth Amendment);
Almeida-Sanchez, 413 U.S. at 271-272 (search pursuant to statute that allowed
United States Border Patrol to conduct warrantless searches within a “reasonable
distance” from border and without any requirement of probable cause violated Fourth
Amendment); Berger, 388 U.S. 41 at 55-56 (statute that authorized court-ordered
eavesdropping without requirement that information to be seized be particularized
violated Fourth Amendment); Sibron, 392 U.S. at 63-66 (search pursuant to statute
that allowed officers to search an individual upon “reasonable suspicion” that he was
engaged in criminal activity was unreasonable because it was conducted without
probable cause). Under those circumstances, this Court freely suppressed the fruits
of the unconstitutional searches.
Nor did Krull purport to address a statutory scheme that did not plainly authorize
20

warrantless searches. The statute at issue in Krull plainly authorized a warrantless
search of the premises of automotive dealers. 480 U.S. at 342-343. Where a statutory
scheme does not authorize a warrantless search, this Court does not rely on that
statutory scheme to justify a warrantless search. Michigan v. DeFillippo, 443 U.S.
31, 39-40 (1979). The search is constitutional (or not) irrespective of the statute’s
existence. Id.
2. The Tenth Circuit’s decision below incorrectly relied on Krull for two
overarching reasons.
2a. First, unlike the statute at issue in Krull, nothing within the statutory scheme
creating NCMEC authorized warrantless searches of anything (let alone an
individual’s protected communications). Rather than authorize NCMEC officials to
search private property, 18 U.S.C. § 2258A(a)(1) required internet service providers
to report suspected child pornography to NCMEC. This third-party duty to report is
dissimilar to the Illinois Vehicle Code’s governmental authorization to search in
Krull. And while § 2258A(b)(4) expressly authorized the third party provider to
include within its report to NCMEC an “image of child pornography,” this section said
nothing whatsoever about granting NCMEC authority to conduct warrantless
searches of private property. Instead, § 2258A(c) instructed NCMEC to “forward each
report” to the appropriate law enforcement agency. In other words, the statutory
scheme required a third party to report suspected child pornography to NCMEC, who
was then tasked with forwarding the third-party report to law enforcement, not
conducting a warrantless search of the contents of the report. That statutory
authority is a far cry from the explicit statutory authority in Krull to conduct
21

warrantless inspections of business records and places of business. 480 U.S. at 343.
But there’s more. After the Tenth Circuit’s decision in Ackerman I, Congress
amended the statutory scheme to authorize NCMEC employees to “review” reports
sent to NCMEC from internet service providers. CyberTipline Modernization Act of
2018, Pub. L. No. 115–395, 132 Stat. 5287, 5289. If such a review were authorized
under § 2258A, as it existed when the search at issue here occurred, there would have
been no need for Congress to amend the statute. See Dean v. United States, 137 S.Ct.
1170, 1177-1178 (2017) (subsequent legislation that uses language not used in
preceding language “confirms that it would have been easy enough to make explicit
what the government argues is implicit in” the preceding statute).
Because the statutory scheme did not authorize a warrantless search of anything
at the time NCMEC officials searched Mr. Ackerman’s email, the Tenth Circuit erred
in relying on Krull. It instead should have analyzed the warrantless search on its own
terms, as this Court did in DeFillippo, 443 U.S. at 39-40. Where a statute does “not
directly authorize the [] search,” the question is simply whether the search is
constitutional under the Fourth Amendment. Id. Had the Tenth Circuit addressed
that issue head on, rather than rely on Krull’s good-faith exception, Mr. Ackerman
would have won. Pet. App. 4a (assuming a constitutional violation); Pet. App. 58a
(concluding that NCMEC conducted a warrantless search of Mr. Ackerman’s email).
Whether Krull extends to statutes that do not expressly authorize searches is
also a question of exceptional importance. This issue recently divided the Fifth
Circuit sitting en banc. United States v. Wallace, 885 F.3d 315, 317 (5th Cir. 2018)
(en banc) (Dennis, J., dissenting) (“unlike the statute at issue in Krull, which
22

reasonably appeared to authorize warrantless administrative searches, the SCA does
not reasonably appear to authorize real-time GPS tracking”). There is also internal
division within Kansas. The Tenth Circuit below upheld such a warrantless search
under Krull, Pet. App. 6a-9a, whereas the Supreme Court of Kansas has employed
the exclusionary rule where a warrantless search was not authorized by statute, State
v. Pettay, 326 P.3d 1039, 1044-1045 (Kan. 2014); see also State v. Deherrera, 965 P.2d
501, 505 (Utah Ct. App. 1998) (Krull good-faith exception inapplicable where statute
did not authorize warrantless search). This type of intra-State conflict is a
particularly compelling reason to grant certiorari. See McGirt v. Oklahoma, 140 S.Ct.
2452, 2460 (2020) (“Recently, the question has taken on more salience too. While
Oklahoma state courts have rejected any suggestion that the lands in question
remain a reservation, the Tenth Circuit has reached the opposite conclusion.”).
2b. This Court should also grant this petition to decide whether Krull extends to
investigatory searches. Again, this Court, on numerous occasions, has suppressed
evidence obtained via warrantless investigatory searches conducted pursuant to
statutes. Ybarra, 444 U.S. at Torres, 442 U.S. at 466-467, 471; Almeida-Sanchez, 413
U.S. at 271-272; Berger, 388 U.S. 41 at 55-56; Sibron, 392 U.S. at 63-66. The Tenth
Circuit should have followed this line of precedent. Instead, the Tenth Circuit
implicitly held that Krull applies to investigatory warrantless search schemes. Pet.
App. 6a-9a.
Whether Krull applies to investigatory search schemes is exceptionally important.
The Tenth Circuit’s extension of Krull effectively permits legislatures to rewrite the
Fourth Amendment. The practical effect of the Tenth Circuit’s rule is an abdication
23

of “the province and duty of the judicial department to say what the law is.” Marbury
v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803). The question is no longer whether a
given law violates the Constitution, but whether a reasonable person in the executive
branch thinks it does. See Krull, 480 U.S. at 367 (O’Connor, J., dissenting) (“[T]he
unconstitutionality of the Illinois statute is not clearly established to this day.”). Our
Fourth Amendment protections should not lie at the mercy of our local legislatures.
Krull had nothing to do with investigatory searches, and the Tenth Circuit erred in
extending Krull to that context.
3. The Tenth Circuit also erred in suggesting that the good-faith exception applies
because no court had held that NCMEC was a governmental entity at the time of the
search at issue here. Pet. App. 8a. This rationale has no support in the law, and it
turns this Court’s decision in Davis on its head. Under the rationale adopted in Davis,
when a governmental official relies on binding appellate precedent to conduct a
warrantless search, and that precedent is subsequently overruled, the good-faith
exception applies. 564 U.S. at 241. “An officer who conducts a search in reliance on
binding appellate precedent does no more than act as a reasonable officer would and
should act under the circumstances.” Id. (cleaned up).
But here, the Tenth Circuit would apply the good-faith exception not because
officials relied on binding appellate precedent to conduct a warrantless search of Mr.
Ackerman’s email, but because of a lack of binding appellate precedent informing the
officials not to conduct a warrantless search of Mr. Ackerman’s email. Pet. App. 8a.
It is blackletter law, however, that warrantless searches are per se unreasonable. See,
e.g., Schneckloth v. Bustamonte, 412 U.S. 218, 219 (1973). Thus, the lack of precedent
24

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS

FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

February 26, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
No. 17-3238
(D.C. No. 6:13-CR-10176-EFM-1)
(D. Kan.)

v.
WALTER ACKERMAN,
Defendant - Appellant.
-----------------------------ELECTRONIC FRONTIER
FOUNDATION; BRENNAN CENTER
FOR JUSTICE; CENTER FOR
DEMOCRACY & TECHNOLOGY;
NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE LAWYERS;
DOWNSIZE DC FOUNDATION;
DOWNSIZEDC.ORG; FREE SPEECH
COALITION; FREE SPEECH DEFENSE
AND EDUCATION FUND; GUN
OWNERS FOUNDATION; GUN
OWNERS OF AMERICA, INC.;
CONSERVATIVE LEGAL DEFENSE
AND EDUCATION FUND; RESTORING
LIBERTY ACTION COMMITTEE,
Amici Curiae.

ORDER AND JUDGMENT*

This order and judgment is not binding precedent, except under the doctrines of
law of the case, res judicata, and collateral estoppel. It may be cited, however, for its
persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
*

Appendix A
1a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 2

Before HARTZ, MATHESON and EID, Circuit Judges.
The defendant-appellant, Walter Ackerman, used his AOL email account to send
child pornography. AOL recognized one of the images as child pornography and sent a
copy of the email to the National Center for Missing & Exploited Children (NCMEC).
Without a warrant, NCMEC opened and inspected the email. Ackerman believed that
this was an unconstitutional search and filed a motion to suppress the evidence obtained
from it. The district court denied the motion, but we reversed and remanded. On
remand, the district court again denied the motion. The district court concluded that
Ackerman’s constitutional rights were not violated, and in any event, the suppression
motion should be denied because the good-faith exception to the exclusionary rule
applies. In this appeal, Ackerman challenges the district court’s second denial of his
motion. Because we agree with the district court that the good-faith exception to the
exclusionary rule applies, we affirm.
I.
On April 22, 2013, Ackerman used his AOL email account to send four images of
child pornography. See R1.1 at 1 (Indictment); R1.37 at 6 (Memorandum and Order
Denying Motion to Suppress); R1.61 at 11–12 (Transcript of Motion Hearing). AOL’s
automated system immediately recognized one of the images as child pornography,
stopped the email from being delivered, and terminated Ackerman’s AOL account. See
R1.37 at 6; R1.61 at 91. The following day, AOL’s automated system generated and sent
a report to NCMEC’s CyberTipline that contained a digital copy of Ackerman’s April 22
2
2a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 3

email. See R1.37 at 5–6; R1.61 at 92, 95 (describing the process generally). A NCMEC
employee reviewed the report, determined that Ackerman’s email contained four images
of child pornography, and forwarded the report to Kansas law enforcement. See R1.37 at
6.
Upon receiving NCMEC’s report of Ackerman’s illegal activity, Kansas law
enforcement obtained a search warrant of Ackerman’s residence. See R1.37 at 6–7. At
Ackerman’s residence, law enforcement discovered more child pornography on several
devices. See id. Ackerman was then charged with one count of possession of child
pornography, 18 U.S.C. § 2252(a)(4)(B), and one count of distribution of child
pornography, 18 U.S.C. § 2252(a)(2). See R1.1.
Ackerman filed a motion to suppress. He argued that both AOL and NCMEC
were government actors and that their searches violated his Fourth Amendment rights.
See R1.13. The district court denied Ackerman’s motion following an evidentiary
hearing. See United States v. Ackerman, No. 13-10176-01-EFM, 2014 WL 2968164, at
*1 (D. Kan. July 1, 2014). The court concluded that neither AOL nor NCMEC were
government actors. See id. at *5–8. It also concluded that—even if NCMEC was a
government actor—NCMEC’s search did not exceed the scope of AOL’s search in a
“constitutionally significant” way. See id. at *8–10. Following the denial, Ackerman
pleaded guilty but reserved his right to appeal the district court’s denial of his motion to
suppress.

3
3a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 4

Ackerman appealed. On appeal, we reversed and held that NCMEC is a
government actor,1 and NCMEC conducted a search. See United States v. Ackerman, 831
F.3d 1292, 1295–1308 (10th Cir. 2016) (“Ackerman I”). But we noted that “hard
questions” remained, including whether the third-party doctrine applied. See id. at 1308.
Additionally, we declined to consider the good-faith exception because the government
failed to provide sufficient briefing. Id.
On remand, the district court again denied Ackerman’s motion to suppress.
Ackerman, 296 F. Supp. 3d at 1269. The district court agreed with Ackerman that he
possessed a subjective expectation of privacy but held that his subjective expectation was
not one society was prepared to recognize as objectively reasonable. See id. at 1271–73.
The district court also held that the good-faith exception applied. See id. at 1273–76.
According to the district court, NCMEC performed this search pursuant to a statutory
scheme. See id. Because NCMEC relied in good faith upon the statutory scheme, the
exclusionary rule’s purpose of deterring government misconduct would not be served
here. See id. We agree with the district court that the good-faith exception applies and
affirm.
II.
We assume, for the sake of argument, that Ackerman has shown a constitutional
violation. We nonetheless affirm because the district court correctly determined that

At the time of the search (April 2013), no court had yet held that NCMEC was a
government actor. See United States v. Ackerman, 296 F. Supp. 3d 1267, 1275–76 (D.
Kan. 2017).
1

4
4a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 5

NCMEC searched Ackerman’s email in good faith.2 Accordingly, the Fourth
Amendment’s exclusionary rule is inapplicable.
Before we discuss the good-faith exception, however, we must first address a
preliminary issue that Ackerman raises. Ackerman contends that because we previously
concluded that the government had waived the good-faith exception, the government
should not have been able to raise it below (or here). While we previously declined in
Ackerman I to consider the government’s good-faith-exception argument because it was
insufficiently briefed, this argument was not waived because we do not “ordinarily
require appellees to raise every possible ground for affirmance in their appellate briefs.”
Haynes Trane Serv. Agency, Inc. v. Am. Standard, Inc., 573 F.3d 947, 963 (10th Cir.
2009).
Even if the government had waived its good-faith-exception argument in
Ackerman I, the district court still had the authority to consider the good-faith exception
on remand because “law of the case principles do not bar a district court from acting”
when an appellate court has not “issued [a decision] on the merits of the claim sought to
be precluded.” Wilmer v. Bd. of Cty. Com’rs of Leavenworth Cty., 69 F.3d 406, 409
(10th Cir. 1995) (quotations omitted) (refusing to apply law of the case because our
decision in the initial appeal denied the motion based on untimeliness and did not address
the merits); Van Dyke v. United States, 457 F. App'x 721, 725 (10th Cir. 2012)
We took a similar approach in United States v. Workman, 863 F.3d 1313, 1315
(10th Cir. 2017) (assuming “for the sake of argument” that the defendant had shown a
constitutional violation but refusing to suppress the evidence because law enforcement’s
actions were “objectively reasonable”).
2

5
5a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 6

(unpublished) (holding that law of the case did not apply to the district court’s decision
on remand where we decided in the initial appeal that we could “not consider the
[government’s] argument given the insufficient record”). Here, the law of the case
doctrine does not apply because we did not render a decision on the merits of the goodfaith exception. See Ackerman I, 831 F.3d at 1308. Instead, in Ackerman I, we declined
to consider the government’s good-faith-exception argument because it was insufficiently
briefed. Id. (deciding that the government’s briefing was “insufficient to preserve [the]
point for appellate review” because the government’s brief only “incorporate[d] by
reference the good faith arguments it presented to the district court.”).3
Turning to whether the good-faith exception to the exclusionary rule applies to
NCMEC’s search, we review this issue de novo. United States v. Danhauer, 229 F.3d
1002, 1005 (10th Cir. 2000) (“Determinations relating to . . . the good-faith exception are
conclusions of law . . . which this court reviews de novo.”). While the general remedy for
a Fourth Amendment violation is exclusion of the evidence, exclusion “has always been
our last resort.” Herring v. United States, 555 U.S. 135, 140 (2009). “The rule’s sole

In his letter of supplemental authority, Ackerman asserts that our decision in
Harte v. Bd. of Commissioners supports his argument that law of the case precluded the
district court from applying the good-faith exception on remand. 940 F.3d 498 (10th Cir.
2019). But Harte held only that, “in applying a fractured panel’s holding, the district
court need only look to and adopt the result the panel reached.” Id. at 504. Although one
judge in Harte reached the majority result by deciding that the plaintiff-appellants had
waived their argument, id. at 509, Harte did not address whether the law of the case
doctrine precludes a district court from considering an issue that was not resolved on the
merits. Consequently, Harte does not demonstrate that the district court could not
consider the government’s good-faith-exception argument after we concluded that it was
insufficiently briefed in Ackerman I.
3

6
6a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 7

purpose . . . is to deter future Fourth Amendment violations.” Davis v. United States, 564
U.S. 229, 236–37 (2011). Accordingly, courts must engage in a “rigorous weighing of
[exclusion’s] costs and deterrence benefits” to determine whether exclusion is warranted.
Id. at 238. The good-faith exception to the exclusionary rule prohibits exclusion when
law enforcement acts in “objectively reasonable reliance upon a statute authorizing” the
search. Illinois v. Krull, 480 U.S. 340, 342, 355 (1987) (refusing to suppress evidence
obtained from warrantless search when law enforcement reasonably relied on a statute
authorizing the search, even though the statute was ultimately found to be
unconstitutional).
Here, the exclusionary rule does not apply because NCMEC’s search fell within
the good-faith exception. Like the officers in Krull, NCMEC acted in objectively
reasonable reliance on a statutory scheme when it inspected the digital copy of
Ackerman’s April 22 email. See 18 U.S.C. § 2258A. As we previously articulated:
“NCMEC and NCMEC alone is statutorily obliged to maintain an electronic tipline for
ISPs to use to report possible Internet child sexual exploitation violations to the
government.” Ackerman I, 831 F.3d at 1296. “Under the statutory scheme, NCMEC is
obliged to forward every single report it receives to federal law enforcement agencies and
it may make its reports available to state and local law enforcement as well.” Id. (citing
18 U.S.C. § 2258A(c)). Additionally, “in aid of its tipline functions NCMEC is
statutorily authorized to receive contraband (child pornography) knowingly and to review
its contents intentionally.” Id. at 1297 (citing 18 U.S.C. § 2258A(a), (b)(4)). These
“actions . . . would normally subject private persons to criminal prosecution.” Id.
7
7a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

Page: 8

Ackerman argues that this case is distinguishable from Krull because in Krull the
statute specifically authorized the government’s search, but here it does not. See Aple.
Br. at 42–43. We agree with the district court that this “argument draws too fine of a
line.” Ackerman, 296 F. Supp. 3d at 1275. “[A]lthough the statutes do not require
NCMEC to open and view the email attachments, ‘everyone accepts that Congress
enabled NCMEC to review [Defendant’s] email by excepting the Center from the myriad
laws banning the knowing receipt, possession, and viewing of child pornography.’” Id.
(quoting Ackerman I, 831 F.3d at 1302).
Given the breadth of the statutory scheme and Ackerman’s inability to distinguish
Krull, we conclude that NCMEC’s search of Ackerman’s email fell within the good-faith
exception to the exclusionary rule because NCMEC acted in “objectively reasonable
reliance” on the statutory scheme. This conclusion is “bolstered [by the fact that] at the
time of the events in question (April 2013), no court had even considered NCMEC a
governmental entity or agent of law enforcement.” Id. at 1275–76. NCMEC had no
reason to suspect that its actions could have violated the Fourth Amendment and thus
there would be no deterrent value in suppressing the fruits of this search.
III.
For the reasons stated above, NCMEC performed the search in good faith pursuant
to a statutory scheme. Consequently, the good-faith exception applies, the evidence

8
8a

Appellate Case: 17-3238

Document: 010110309364

Date Filed: 02/26/2020

should not be excluded, and we AFFIRM the district court’s judgment.

Entered for the Court
Allison H. Eid
Circuit Judge

9
9a

Page: 9

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 1 of 15

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
UNITED STATES OF AMERICA,
Plaintiff,

vs.

Case No. 13-10176-01-EFM

WALTER ACKERMAN,
Defendant.

MEMORANDUM AND ORDER
This matter is again before the Court on Defendant Walter Ackerman’s Motion to
Suppress (Doc. 19). Defendant seeks the suppression of an email and its attachments arguing
that they were obtained through an illegal search and seizure. This Court originally denied
Defendant’s Motion to Suppress finding that AOL and the National Center for Missing and
Exploited Children (“NCMEC”), the parties who searched Defendant’s emails, were not state
actors. Thus, the Fourth Amendment was inapplicable to their conduct in this case. In the
alternative, this Court found that even if NCMEC’s search could be considered a government
search, NCMEC’s search did not exceed the scope of AOL’s search in such a way that would be
constitutionally significant.
On appeal, the Tenth Circuit Court of Appeals reversed and found that NCMEC was a
governmental entity. In the alternative, the circuit found that NCMEC acted as a government

Appendix B
10a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 2 of 15

agent. Finally, the Tenth Circuit found that NCMEC’s search expanded AOL’s private search.
Thus, the Tenth Circuit remanded the case. In remanding the case, the Tenth Circuit noted that
“hard questions remain to be resolved on remand.”
The Court allowed additional briefing by both the government and Defendant. On
September 19, 2017, the Court held a hearing. After considering the parties’ arguments, the
Court finds that Defendant did not have an objectively reasonable expectation of privacy in his
email and the four attachments. Thus, NCMEC’s search did not violate his Fourth Amendment
rights. In the alternative, even if Defendant did have an expectation of privacy and his Fourth
Amendment rights were violated, suppression is unwarranted due to the good faith exception.
Thus, the Court denies Defendant’s Motion to Suppress.
I.

Factual and Procedural Background1

Defendant Walter Ackerman was a user of AOL Mail and used the screen name
“plains66952.” To use AOL’s services, AOL requires its users to agree to its Terms of Service
(“TOS”). As of April 19, 2013, these TOS state that a user must:
a.

Comply with applicable laws and regulations and not participate in, facilitate, or
further illegal activities;
...

d. Not post content that contains explicit or graphic descriptions or accounts of
sexual acts or is threatening, abusive, harassing, defamatory, libelous, deceptive,
fraudulent, invasive of another’s privacy, or tortious;
e. Not engage in an activity that is harmful to us or our customers, advertisers,
affiliates, vendors, or anyone else
...
1

A more detailed recitation of facts is set forth in this Court’s previous Order. See Doc. 37. Only the facts
pertinent to the issues in this Order will be set forth here. Some of these facts are taken from the evidence and
testimony in the original hearing on Defendant’s motion on May 19 and 20, 2014. Other facts are from this Court’s
and the Tenth Circuit Court of Appeal’s previous opinions. During the hearing in September 2017, the Court did not
allow any additional evidence but only heard arguments related to the evidence already before the Court.

-211a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 3 of 15

To prevent violations and enforce this TOS and remediate any violations, we can
take any technical, legal, and other actions that we deem, in our sole discretion,
necessary and appropriate without notice to you.
AOL employs an Image Detection and Filtering Process (“IDFP”), an automated program
that systematically scans emails sent, saved, or forwarded from an AOL account to scan for
malware, viruses, and illegal images such as child pornography. As part of this IDFP, AOL
developed and maintains a database of hash values associated with child pornography. A hash
value is derived from a specific digital file and is an alphanumeric sequence that is unique to that
digital file. If an email user sends an email with images, either as an attachment to that email or
embedded in the body of the email, AOL’s IDFP compares those images with previously
identified child pornography images. If a match occurs, AOL automatically terminates the user’s
account and the user can no longer access his email account.
On April 22, 2013, AOL’s IDFP detected an email sent by “plains66952@aol.com” to
“zoefeather@riseup.net,” which contained a hash value of previously identified child
pornography. AOL’s detection system identified one of the four images attached to Defendant’s
email as child pornography.2 As a result of AOL’s discovery that Defendant violated AOL’s
TOS, AOL immediately terminated Defendant’s account.
AOL then submitted a report to NCMEC through its CyberTipline on April 23, 2013.
This report included Defendant’s email along with the four attached images. A NCMEC analyst

2

It was not until the case was before the Tenth Circuit that it became apparent that AOL only matched one
of the four email images with a hash value.

-312a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 4 of 15

viewed the email and the four attached images and confirmed that all four appeared to be child
pornography.3 NCMEC then alerted local law enforcement agents.
On November 6, 2013, a grand jury indicted Defendant on one count of distribution of
child pornography and one count of possession of child pornography. Defendant filed a Motion
to Suppress (Doc. 13). After conducting an evidentiary hearing, this Court denied Defendant’s
motion.
Defendant then entered into a conditional guilty plea, but he reserved his right to appeal
the denial of his motion to suppress. On appeal, Defendant asserted that NCMEC’s actions
constituted an unreasonable search. The Tenth Circuit agreed and found that NCMEC was a
governmental entity, or in the alternative, acted as a governmental agent. Next, it concluded that
NCMEC’s search exceeded the scope of AOL’s private search.
The Tenth Circuit remanded the case and stated that “hard questions remain to be
resolved on remand.”4 The Tenth Circuit stated that one of those hard questions was “whether
the third-party doctrine might preclude [Defendant’s] claim to the Fourth Amendment
application.”5 It also appears that the Tenth Circuit left open the question of whether Defendant
had a reasonable expectation of privacy given that it stated “the district court has yet to make any
factual findings relevant to [Defendant’s] subjective expectations of privacy or the objective
reasonableness of those expectations in light of the parties’ dealings (e.g., the extent to which
AOL regularly accessed emails and the extent to which users were aware of or acquiesced in

3

The fact that NCMEC viewed all four of the images, rather than just the one that matched AOL’s hash
value, was an important factor in the Tenth Circuit’s analysis.
4

United States v. Ackerman, 831 F.3d 1292, 1308 (10th Cir. 2016).

5

Id.

-413a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 5 of 15

such access).”6 The final issue to be resolved is whether one of the “hard questions” on remand
encompasses the good faith doctrine and its applicability in this case.
II.

Analysis

Defendant seeks the suppression of the email and its attachments contending that it was
obtained through an illegal search and seizure. The Court will first consider whether Defendant
had a reasonable expectation of privacy in his email and four attachments. Next, the Court will
consider whether the government acted in good faith and whether the good faith doctrine is
applicable in this case.
A.

Reasonable Expectation of Privacy
When this Court previously considered whether Defendant had a reasonable expectation

of privacy, the Court assumed without deciding that he did. On appeal to the Tenth Circuit, the
circuit noted this fact.7 The circuit also stated that this Court had not made any factual findings
as to a reasonable expectation of privacy and that those facts may impact the legal analysis.8
Thus, the Court will now consider Defendant’s expectation of privacy in his email.
“A search only violates an individual’s Fourth Amendment rights if he or she has a
legitimate expectation of privacy in the area searched.”9 There is a two-part test in determining
whether a reasonable expectation of privacy exists.10 First, the defendant must demonstrate that

6

Id. at 1305.

7

Id. (“[T]hroughout its decision the court assumed that [Defendant] had a reasonable expectation of
privacy in his email.”).
8

Id. (noting the lack of factual findings as to Defendant’s subjective and objective expectations of privacy).

9

United States v. Ruiz, 664 F.3d 833, 838 (10th Cir. 2012) (quotation marks and citation omitted).

10

See Smith v. Maryland, 442 U.S. 735, 740 (1979).

-514a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 6 of 15

he “manifested a subjective expectation of privacy in the area searched.”11 Next, there is the
question of “whether society is prepared to recognize that expectation as objectively
reasonable.”12
The government asserts that a search did not occur because Defendant did not have a
reasonable expectation of privacy in his email and the four attached images at the time NCMEC
reviewed it. The government frames the issue narrowly. It does not rely on the third-party
doctrine and agrees that Defendant had an expectation of privacy in his email account before
AOL terminated his account. Instead, the government argues that Defendant fails to present any
evidence that he had a subjective or objective expectation of privacy in the one email and four
attachments to that email after AOL (the third-party email provider) terminated his account for
violating its TOS.
Defendant testified that he believed his email was private.

Thus, with regard to

Defendant’s subjective belief, he satisfies his burden. The relevant question in this case is
whether Defendant’s subjective expectation is objectively reasonable. Narrowed down even
further, the question is whether Defendant had an objectively reasonable expectation of privacy
in the one email and four attachments after AOL had terminated his account.
In this case, Defendant was a user of AOL and was subject to AOL’s TOS. To have an
account with AOL, a user must agree to the terms. If AOL updates its TOS, it sends an email to
the AOL user that states that AOL is updating its TOS on a certain date and that the user’s log-in
after that date indicates that the user accepts the new TOS.

11

United States v. Johnson, 584 F.3d 995, 999 (10th Cir. 2009) (citation omitted).

12

Id. (citation omitted).

-615a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 7 of 15

Here, Defendant agreed to AOL’s TOS by using his email account. The TOS expressly
alerted Defendant that he was not to participate or engage in illegal activity. In addition, the
TOS provided that a user must not post explicit sexual acts. Furthermore, it informed Defendant
that if he did not comply with the applicable TOS, it could take technical, legal or other actions
(in its sole discretion) to enforce the TOS.
In at least two recent cases from different district courts, courts have determined that the
existence of a TOS agreement diminishes a user’s objectively reasonable expectation of privacy.
In United States v. Stratton,13 a case from the District of Kansas, the defendant had an account
through electronic service provider Sony’s PlayStation Network.14 Users can communicate with
other users online in a similar manner to email communication, and users must agree to Sony’s
TOS.15 The defendant sent messages about child pornography and downloaded images that
included child pornography.16
In Stratton, the court found the Tenth Circuit’s reasoning regarding whether an employee
had a legitimate expectation of privacy in images he downloaded on a work computer
instructive.17 The court noted that although the case before it did not involve an employeeemployer relationship, the rationale that “the employer’s regulations reduced the employee’s
expectation of privacy” applied equally to Sony and its users.18 The court noted that users of

13

229 F. Supp. 3d 1230 (D. Kan. 2017).

14

Id. at 1233.

15

Id.

16

Id. at 1235.

17

Id. at 1241-42 (citing United States v. Angevine, 281 F.3d 1130 (10th Cir. 2002))

18

Id. at 1242.

-716a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 8 of 15

Sony’s PlayStation had to agree to the TOS when signing up for an account.19 The TOS
included such terms that Sony reserved the right to monitor online activity and that users must
not violate any laws.20

Thus, the Court found that the TOS “explicitly nullified its users

reasonable expectation of privacy.”21
Similarly, in United States v. Wilson,22 a case from the Southern District of California,
the court determined that the defendant lacked a reasonable expectation of privacy in the child
pornography files that he uploaded to his Google email account because he had agreed to
Google’s TOS when creating his Google account.23 The court reasoned that the defendant was
aware that Google may review and monitor his account for illegal activity.24 Thus, the court
found no reasonably objective expectation of privacy.25
In this case, AOL’s TOS similarly limits Defendant’s objectively reasonable expectation
of privacy. As noted above, the TOS informed Defendant that he must comply with applicable
laws and that he could not participate in illegal activities. AOL’s TOS also informed Defendant
that if he participated in illegal activities or did not comply with AOL’s TOS, it could take
technical, legal, or other actions without notice to him. Thus, the Court concludes that Defendant
cannot establish a reasonably objective expectation of privacy in this particular email and its four

19

Id.

20

Id.

21

Id.

22

2017 WL 2733879 (S.D. Cal. 2017).

23

Id. at *7.

24

Id.

25

Id.

-817a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 9 of 15

attachments (containing child pornography) after AOL terminated his account for violating its
TOS.
In sum, even though the Tenth Circuit found that NCMEC is a governmental actor and/or
entity and exceeded AOL’s private search, this Court finds on remand that Defendant did not
have a reasonable expectation of privacy in his email or the four attached images at the time of
NCMEC’s search. Because he did not have a reasonable expectation of privacy, NCMEC’s
conduct did not cause a violation of the Fourth Amendment and suppression is not warranted.
B.

Good Faith Exception
Alternatively, even if Defendant could establish a reasonable expectation of privacy,

suppression is unwarranted due to the good faith doctrine. As an initial matter, the parties
disagree as to whether the government can assert the good faith doctrine on remand. When this
case was initially before this Court, the government argued that even if a search occurred that
violated the Fourth Amendment, the good faith exception would be applicable. This Court did
not reach the issue and made no rulings in its previous order as to the applicability of the good
faith doctrine.
Defendant appealed this Court’s ruling to the Tenth Circuit but did not appeal any ruling
on the good faith doctrine as there was no ruling from which to appeal. Instead, Defendant
appealed the rulings that NCMEC was not acting as a governmental agent and even if it was,
NCMEC’s search did not surpass AOL’s private search. The Tenth Circuit reversed on both
issues. After making its findings, the Tenth Circuit noted that the government could have argued
any number of reasons as to why NCMEC’s search was still “reasonable.”26 The circuit noted

26

Ackerman, 831 F.3d at 1308.

-918a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 10 of 15

that the closest that the government came to briefing the question was whether NCMEC acted in
good faith.27 However, the circuit stated that the government had only incorporated by reference
the good faith arguments it had presented to the district court and that this was insufficient to
preserve a point for appellate review.28
“When a case is appealed and remanded, the decision of the appellate court establishes
the law of the case and ordinarily will be followed by both the trial court on remand and the
appellate court in any subsequent appeal.”29 “The law of the case doctrine precludes relitigation
of a ruling of law in a case once it has been decided.”30 “Law of the case principles do not bar a
district court from acting unless an appellate decision has issued on the merits of the claim
sought to be precluded.”31
Here, there has not been a ruling of law on the applicability of the good faith doctrine.
On appeal, neither party could challenge this Court’s legal decision on the good faith doctrine
because this Court did not address the doctrine. Thus, the law of the case doctrine does not
preclude consideration of this issue upon remand.
Substantively, the government argues that even if NCMEC’s review of Defendant’s email
and the four attachments violated the Fourth Amendment, suppression is not warranted because
27

Id.

28

Id. There was no ruling, however, for the circuit to review because this Court made no findings
regarding the good faith exception.
29

United States v. West, 646 F.3d 745, 747-48 (10th Cir. 2011) (quotation marks and citation omitted).

30

Id. at 748.

31

Wilmer v. Bd. of Cty. Comm’rs of Leavenworth Cty., 69 F.3d 406, 409 (10th Cir. 1995) (quotation marks
and citation omitted); see also Concrete Works of Colo., Inc. v. City & Cty. of Denver, 321 F.3d 950, 992 (10th Cir.
2003) (citation omitted) (noting that the district court had decided an issue but when the party appealed the case, the
party waived the issue by not briefing it to the appellate court and thus the law of the case precluded relitigation of
that issue when the case was remanded to the district court).

-1019a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 11 of 15

NCMEC and law enforcement acted in good faith. Although evidence obtained in violation of
the Fourth Amendment generally cannot be used, there are a few exceptions to the Fourth
Amendment’s exclusionary rule. One of those exceptions is when law enforcement acts in good
faith, or in “objectively reasonable reliance,” on a statutory scheme.32
For this proposition, the government primarily relies upon a United States Supreme Court
case, Illinois v. Krull,33 and United States v. Keith,34 a case from the District of Massachusetts.
In Krull, a police officer relied upon a state statutory scheme when he searched an automobile
wrecking yard and ultimately found several stolen vehicles.35 A day after the search, the statute
was found unconstitutional for authorizing warrantless searches.36 The Illinois courts suppressed
the evidence finding that the statute was unconstitutional and that “good-faith reliance upon that
statute could not be used to justify the admission of evidence under an exception to the
exclusionary rule.”37 The United States Supreme Court reversed. Specifically, it found that the
exclusionary rule was inapplicable to suppressing evidence obtained by a police officer who
acted in objectively reasonable reliance on a statute that authorized a warrantless administrative
search, even though the statute was later found unconstitutional.38 Thus, the United States

32

See United States v. Vanness, 342 F.3d 1093, 1097 (10th Cir. 2003) (citing United States v. Leon, 468
U.S. 897 (1984) and Illinois v. Krull, 480 U.S. 340 (1987)).
33

480 U.S. 340 (1987).

34

980 F. Supp. 2d 33 (D. Mass. 2013).

35

Krull, 480 U.S. at 343.

36

Id. at 344.

37

Id. at 346.

38

Id. at 357-58.

-1120a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 12 of 15

Supreme Court found that the officer’s good faith reliance upon that statute did not warrant
suppression of the evidence.
In Keith, the court considered similar facts to this case.

There, AOL identified a

matching hash value in an email and sent NCMEC a CyberTipline report with the suspect file.39
The court first found that NCMEC acted as an agent of law enforcement when it examined the
CyberTipline report and that Fourth Amendment principles were applicable to its conduct.40 The
court decided, however, that even though NCMEC’s examination violated the Fourth
Amendment, the exclusionary rule was inapplicable to its conduct.41 Relying on the reasoning in
Krull, the court concluded that Congress, by statute, had given NCMEC’s CyberTipline a large
role in the detection and prosecution of child pornography crimes.42 The court stated “[t]here is
nothing in the record in this case that would suggest either NCMEC or the police or the
magistrate who issued the warrant knew or ought to have known that by relying on the
CyberTipline report they were doing something that was unconstitutional under the Fourth
Amendment.43 Accordingly, the court declined to suppress the evidence.44
Defendant contends that the good faith exception is inapplicable here. He argues that the
statutory scheme in Krull is different from the statutory scheme in this case because the statutory
scheme in Krull expressly authorized warrantless searches. Specifically, the statute in Krull

39

Keith, 980 F. Supp. 2d at 37.

40

Id. at 41-43, 46.

41

Id. at 46.

42

Id.

43

Id.

44

Id. at 46-47.

-1221a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 13 of 15

allowed officials to “inspect” records “at any reasonable time during the night or day” and
allowed “examination of the premises of . . . place of business.”45 In contrast, Defendant
contends that the statute here does not authorize warrantless searches but instead simply allows
NCMEC to possess contraband.
Defendant’s argument draws too fine of a line. Under 18 U.S.C. § 2258A(a)(1), an
electronic service provider is required to provide a report of any apparent child pornography to
NCMEC’s CyberTipline. This report may include information about the individual, historical
reference, geographic location, and any images.46 NCMEC is then required to forward this
report and information to law enforcement.47 In the Tenth Circuit’s Ackerman opinion, it noted
these statutes and stated that NCMEC is “statutorily authorized to receive contraband (child
pornography) knowingly and review its contents intentionally.”48 It also stated that these statutes
were effectively “a statutory grant of special law enforcement authority to a single entity and no
other, authorizing and encouraging it to perform functions no other private person or entity may
lawfully undertake.”49 The Tenth Circuit, in determining that NCMEC acted as a governmental
agent recognized and acknowledged the breadth of the authority given to NCMEC by statute.50
In addition, the Tenth Circuit noted that although the statutes do not require NCMEC to open and

45

Krull, 480 U.S. at 343.

46

18 U.S.C. § 2258A(b)(1)-(4).

47

Id. at § 2258A(c).

48

Ackerman, 831 F.3d at 1297 (emphasis added) (citing 18 U.S.C. § 2258A(a), (b)(4)).

49

Id. at 1303.

50

See id. at 1301-02 (“Congress statutorily required AOL to forward [Defendant’s] email to NCMEC;
Congress statutorily required NCMEC to maintain the CyberTipline to receive emails like [Defendant’s]; Congress
statutorily permitted NCMEC to review [Defendant’s] email and attachments; and Congress statutorily required
NCMEC to pass along a report about [Defendant’s] activities to law enforcement authorities.”).

-1322a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 14 of 15

view the email attachments, “everyone accepts that Congress enabled NCMEC to review
[Defendant’s] email by excepting the Center from the myriad laws banning the knowing receipt,
possession, and viewing of child pornography. Nothing about NCMEC’s actions could possibly
have come as a surprise.”51
Based on the comprehensive statutory scheme governing NCMEC and its operation of
the CyberTipline, NCMEC’s conduct in reviewing the email and its four attachments was
objectively reasonable and in good faith. NCMEC relied on a statutory scheme allowing it to
perform a review. At the time of NCMEC’s conduct, it would not have known that it was doing
something unconstitutional. This conclusion is bolstered because at the time of the events in
question (April 2013), no court had even considered NCMEC a governmental entity or agent of
law enforcement.52
Furthermore, “exclusion has always been our last resort, not our first impulse.”53
Generally, exclusion is only applicable when it would result in “appreciable deterrence.”54 As
noted by the court in the District of Massachusetts, “[n]o persuasive argument can be made that
an organization like NCMEC needs to be deterred from acting in good faith in a way that is
consistent with explicit congressional will.”55

51

Id. at 1302. At this time, these statutes have not been declared or considered unconstitutional.

52

The decision in Keith in which the District of Massachusetts found that NCMEC acted as an agent of law
enforcement did not occur until November 2013.
53

Herring v. United States, 555 U.S. 135, 140 (2009) (citing Hudson v. Michigan, 547 U.S. 586, 591

54

Id. at 141 (quotation marks and citations omitted).

55

Keith, 980 F. Supp. 2d at 46.

(2006)).

-1423a

Case 6:13-cr-10176-EFM Document 102 Filed 10/30/17 Page 15 of 15

Finally, “[t]he extent to which the exclusionary rule is justified by these deterrence
principles varies with the culpability of the law enforcement conduct.”56 As noted above, until
recently, NCMEC would not have even known that it was considered an agent of law
enforcement and thus its culpability for its “law enforcement conduct” is minimal. In sum, even
if NCMEC’s search violated Fourth Amendment principles, NCMEC’s conduct was objectively
reasonable and excluding the evidence would not result in meaningful deterrence.
IT IS THEREFORE ORDERED that Defendant Walter Ackerman’s Motion to
Suppress (Doc. 13) is hereby DENIED.
IT IS SO ORDERED.
Dated this 30th day of October, 2017.

ERIC F. MELGREN
UNITED STATES DISTRICT JUDGE

56

Herring, 55 U.S. at 143.

-1524a

Appellate Case: 14-3265

Document: 01019668150

PUBLISH

FILED

United
States CourtPage:
of Appeals
Date Filed:
08/05/2016
1
Tenth Circuit

August 5, 2016
Elisabeth A. Shumaker
Clerk of Court

UNITED STATES COURT OF APPEALS
TENTH CIRCUIT

UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

WALTER E. ACKERMAN,
Defendant-Appellant.
--------------------------------------------

No. 14-3265

NATIONAL CENTER FOR MISSING
AND EXPLOITED CHILDREN;
DROPBOX, INC.; FACEBOOK, INC.;
GOOGLE, INC.; MICROSOFT
CORPORATION; PINTEREST, INC.;
SNAPCHAT, INC.; TWITTER, INC.,
Amici Curiae.
Appeal from the United States District Court
for the District of Kansas
(D.C. No. 6:13-CR-10176-EFM-1)
Daniel T. Hansmeier, Appellate Chief (Melody Brannon, Federal Public Defender,
with him on the briefs), Office of the Kansas Federal Public Defender, Kansas
City, Kansas, for Defendant-Appellant.
Jason W. Hart, Assistant United States Attorney (Barry R. Grissom, United States
Attorney, with him on the brief), Office of the United States Attorney, Wichita,
Kansas, for Plaintiff-Appellee.
Appendix C
25a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 2

Christopher J. Schmidt, Bryan Cave LLP, St. Louis, Missouri (Lee Marshall,
Bryan Cave LLP, San Francisco, California, and Logan Rutherford, Bryan Cave
LLP, Kansas City, Missouri, with him on the brief), for amicus curiae National
Center for Missing and Exploited Children, in support of Plaintiff-Appellee.
Eric D. Miller, Ryan T. Mrazik, Nicola Menaldo, Erin K. Earl, Perkins Coie LLP,
Seattle, Washington, for amici curiae Dropbox, Inc., Facebook, Inc., Google, Inc.,
Microsoft Corporation, Pinterest, Inc., Snapchat, Inc., and Twitter, Inc., in
support of Plaintiff-Appellee.
Before HARTZ, GORSUCH, and PHILLIPS, Circuit Judges.
GORSUCH, Circuit Judge, delivered the opinion of the Court, in which
PHILLIPS, J., joined. HARTZ, J., joined Parts I, II, III(A), and IV.
Walter Ackerman’s email never made it to its intended recipient. It didn’t
because AOL, Mr. Ackerman’s internet service provider (ISP), has an automated
filter designed to thwart the transmission of child pornography. After that filter
identified one of four images attached to Mr. Ackerman’s email as child
pornography, AOL instantly stopped delivery and the company soon shuttered Mr.
Ackerman’s account.
How does AOL’s screening system work? It relies on hash value matching.
A hash value is (usually) a short string of characters generated from a much larger
string of data (say, an electronic image) using an algorithm — and calculated in a
way that makes it highly unlikely another set of data will produce the same value.
Some consider a hash value as a sort of digital fingerprint. See Richard P.
Salgado, Fourth Amendment Search and the Power of the Hash, 119 Harv. L.
-226a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 3

Rev. F. 38, 38-40 (2005). AOL’s automated filter works by identifying the hash
values of images attached to emails sent through its mail servers. Those values
are then compared to the hash values of images that AOL employees have viewed
previously and deemed child pornography. Any email containing an image with a
matching hash value is automatically weeded out.
As soon as AOL identified a hash value match in this case, the company
did just what federal law requires: it forwarded a report to the National Center
for Missing and Exploited Children (NCMEC) through an online tool called the
CyberTipline. AOL’s report included Mr. Ackerman’s email along with all four
attached images. A NCMEC analyst opened the email, viewed each of the
attached images, and confirmed that all four (not just the one AOL’s automated
filter identified) appeared to be child pornography. After the analyst determined
as well that Mr. Ackerman was the likely owner of the account, NCMEC alerted
law enforcement agents in the area where he lived. And not long after that, a
federal grand jury indicted Mr. Ackerman on charges of possession and
distribution of child pornography. At the end of it all, Mr. Ackerman entered a
conditional guilty plea but reserved his right to appeal the denial of his motion to
suppress the fruits of NCMEC’s investigation.
We can appreciate why, for his motion raises (at least) two difficult
constitutional questions. Mr. Ackerman alleges that NCMEC’s actions amounted
to an unreasonable search of his email and its attachments because no one sought
-327a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 4

a warrant and no one invoked any recognized lawful basis for failing to seek one.
But the Fourth Amendment only protects against unreasonable searches
undertaken by the government or its agents — not private parties. So Mr.
Ackerman’s motion raises the question: does NCMEC qualify as a governmental
entity or agent? Even if it does, a second hard question remains. The Supreme
Court’s “private search” doctrine suggests the government doesn’t conduct a
Fourth Amendment “search” when it merely repeats an investigation already
conducted by a private party like AOL. Which raises this question: did NCMEC
simply repeat or did it exceed the scope of AOL’s investigation? For its part, the
district court denied Mr. Ackerman’s motion to suppress both because NCMEC is
not a governmental actor and, alternatively and in any event, because NCMEC’s
search didn’t exceed the scope of AOL’s private search.
We find we must disagree.
I
Start with the question whether NCMEC qualifies as a governmental entity.
The problem of drawing a line between public and private entities is an old and
difficult one. Perhaps the Supreme Court’s first great tangle with the task came
in Trustees of Dartmouth College v. Woodward, 17 U.S. (4 Wheat.) 518, 668-69
(1819). There the Court suggested that the calling card of a governmental entity
is whether it is “invested with any portion of political power, partaking in any
degree in the administration of civil government, and performing duties which
-428a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 5

flow from the sovereign authority.” Id. at 634 (opinion of Marshall, C.J.). That
an entity might be incorporated, as NCMEC is, doesn’t prevent it from also
qualifying as a governmental entity: the dispositive question isn’t one of form
but function, turning on what the entity does, not how it is organized. So, for
example, a municipality may undoubtedly qualify both as a corporation and as a
governmental entity. See Philips v. Bury (1694) 90 Eng. Rep. 1294, 1299 (“There
are in law two sorts of corporations aggregate of many; such as are for publick
government, and such as are for private charity.”); 1 Joseph Stancliffe Davis,
Essays in the Earlier History of American Corporations 72-74 (1917).
When it comes to what qualifies as a public, political, or sovereign
function, we know too that the “police function” is among the paradigmatic
examples. See Foley v. Connelie, 435 U.S. 291, 297 (1978) (describing the
“police function” as “one of the basic functions of government”); Flagg Bros.,
Inc. v. Brooks, 436 U.S. 149, 163 (1978) (noting that policing is among the “state
and municipal functions” that “have been administered with a greater degree of
exclusivity by States and municipalities”). Even before the rise of professional
police departments, a private person dragooned into a “posse comitatus” bore “the
same authority as the sheriff” and “was protected [by law] to the same extent.”
Filarsky v. Delia, 132 S. Ct. 1657, 1664 (2012); see also 1 William Blackstone,
Commentaries *332. To be sure, some cases have suggested that the mere
investigation of crime or temporary detention of suspected criminals by private
-529a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 6

security guards is not a uniquely public function. See, e.g., Gallagher v. “Neil
Young Freedom Concert,” 49 F.3d 1442, 1457 (10th Cir. 1995); Wade v. Byles,
83 F.3d 902, 905-06 (7th Cir. 1996); United States v. Garlock, 19 F.3d 441, 44344 (8th Cir. 1994). But that’s because the guards’ lawful authority to act in those
cases was no broader than that enjoyed by any private citizen — including the
right to carry a weapon, to use deadly force in self-defense, and to conduct a
citizen’s arrest. See Romanski v. Detroit Entm’t, L.L.C., 428 F.3d 629, 637-38
(6th Cir. 2005). Meanwhile, when an actor is endowed with law enforcement
powers beyond those enjoyed by private citizens, courts have traditionally found
the exercise of the public police power engaged. Id. at 637. 1
NCMEC’s law enforcement powers extend well beyond those enjoyed by
private citizens — and in this way it seems to mark it as a fair candidate for a
governmental entity. NCMEC’s two primary authorizing statutes — 18 U.S.C.
§ 2258A and 42 U.S.C. § 5773(b) — mandate its collaboration with federal (as
well as state and local) law enforcement in over a dozen different ways, many of
which involve duties and powers conferred on and enjoyed by NCMEC but no
other private person. For example, NCMEC is statutorily obliged to operate the
Richardson v. McKnight, 521 U.S. 399 (1997), might appear an exception
to this rule, for there the Supreme Court held that certain private prison guards
weren’t state actors for purposes of qualified immunity. Id. at 412. But
Richardson was criticized at the time for elevating form over function, see id. at
414-18 (Scalia, J., dissenting), and since then the Court has both returned to
Dartmouth College’s tried and true approach and expressly limited Richardson to
its facts, see Filarsky, 132 S. Ct. at 1662-65, 1667.
1

-630a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 7

official national clearinghouse for information about missing and exploited
children, to help law enforcement locate and recover missing and exploited
children, to “provide forensic technical assistance . . . to law enforcement” to help
identify victims of child exploitation, to track and identify patterns of attempted
child abductions for law enforcement purposes, to “provide training . . . to law
enforcement agencies in identifying and locating non-compliant sex offenders,”
and of course to operate the CyberTipline as a means of combating Internet child
sexual exploitation. 42 U.S.C. § 5773(b). Responsibilities and rights Congress
has extended to NCMEC alone “under Federal law” and done so specifically “to
assist or support law enforcement agencies in administration of criminal justice
functions.” Id. § 16961(a)(1). This special relationship runs both ways, too, for
NCMEC is also empowered to call on various federal agencies for unique forms
of assistance in aid of its statutory functions. See 18 U.S.C. § 3056(f)
(authorizing the U.S. Secret Service to provide, “at the request of” NCMEC,
“forensic and investigative assistance in support of any investigation involving
missing or exploited children”).
Focusing in particular on NCMEC’s CyberTipline functions, the functions
at issue in this case, illustrates and confirms the special law enforcement duties
and powers it enjoys. First, NCMEC and NCMEC alone is statutorily obliged to
maintain an electronic tipline for ISPs to use to report possible Internet child
sexual exploitation violations to the government. Under the statutory scheme,
-731a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 8

NCMEC is obliged to forward every single report it receives to federal law
enforcement agencies and it may make its reports available to state and local law
enforcement as well. See id. § 2258A(c).
Second, ISPs must report any known child pornography violations to
NCMEC. Not to any other governmental agency, but again to NCMEC and
NCMEC alone. ISPs who fail to comply with this obligation face substantial (and
apparently criminal) penalties payable to the federal government. Id.
§ 2258A(a)(1), (e); see also Child Exploitation & Obscenity Section, Frequently
Asked Questions (FAQs), U.S. Dep’t Just., https://www.justice.gov/criminal-ceos/
frequently-asked-questions-faqs (last visited July 7, 2016) (“If the ISP knowingly
and willfully fails to report the apparent violation, it is subject to criminal
penalties.”).
Third, when NCMEC confirms it has received a report the ISP must treat
that confirmation as a request to preserve evidence issued by the government
itself. Compare 18 U.S.C. § 2258A(h)(1) (“[T]he notification to an [ISP] . . . by
the CyberTipline of receipt of a report . . . shall be treated as a request to
preserve, as if such request was made pursuant to section 2703(f).”), with id.
§ 2703(f)(1) (“A[n ISP] . . . , upon the request of a governmental entity, shall take
all necessary steps to preserve records and other evidence in its possession
. . . .”). Failure to comply again opens an ISP to potential civil or criminal
sanctions. See id. § 2258B.
-832a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 9

Fourth, in aid of its tipline functions NCMEC is statutorily authorized to
receive contraband (child pornography) knowingly and to review its contents
intentionally. Id. § 2258A(a), (b)(4); NCMEC Amicus Br. at 20-21. Actions that
would normally subject private persons to criminal prosecution. See 18 U.S.C.
§ 2252A(a)(2) (knowing receipt or distribution); id. § 2252A(a)(5)(B) (knowing
possession or access with intent to view). But actions that Congress allows
NCMEC to take precisely because of the unique value it provides in the
prosecution of child exploitation crimes. See R. vol. 3 at 198-99. Of course,
Congress also provides that ISPs who forward and preserve images of child
pornography in accord with the law may not be prosecuted. See 18 U.S.C.
§ 2258B(a). But this insulates ISPs only when they do what any private citizen
who discovers apparent child pornography might without inviting a real risk of
criminal prosecution: pass evidence along to law enforcement and comply with
its preservation instructions. All quite unlike NCMEC, which (again alone)
enjoys the right to receive child pornography knowingly and review it
intentionally.
Recent Supreme Court decisions fortify our conviction that NCMEC
qualifies as a governmental entity. In a pair of cases the Court held that Amtrak
— a publicly owned corporation — is a governmental entity. Lebron v. Nat’l R.R.
Passenger Corp., 513 U.S. 374, 399 (1995); Dep’t of Transp. v. Ass’n of Am.
R.Rs. (DOT), 135 S. Ct. 1225, 1233 (2015). The Court began by recalling that the
-933a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 10

government cannot “evade the most solemn obligations imposed in the
Constitution by simply resorting to the corporate form.” Lebron, 513 U.S. at 397.
Then the Court proceeded to examine the level of governmental control over
Amtrak, the broad statutory mandates to which it was subject, its dependence on
federal funding, the purpose behind its creation, and the benefits it conferred on
the government. See id. at 397-400; see also DOT, 135 S. Ct. at 1231-33. In the
end, the Court held that the “combination” of these considerations conspired to
suggest that Amtrak was indeed a governmental entity. Id. at 1232-33.
Looking to similar considerations here leads us to a similar conclusion.
Much as Amtrak was created by statute to assume functions previously carried out
by private railroads, Congress passed statutes to fund and mandate various of
NCMEC’s functions soon after private parties incorporated it. 2 Today, NCMEC
is statutorily required to perform over a dozen separate functions, a fact that
evinces the sort of “day-to-day” statutory control over its operations that the
Court found tellingly present in the Amtrak cases. 3 Law enforcement agents
See, e.g., Missing Children’s Assistance Act, Pub. L. No. 98-473, 98 Stat.
1837, 2125-27 (1984) (codified as amended at 42 U.S.C. § 5771); Pub. L. No.
106-113 app. A, 113 Stat. 1501, 1501A-23 (1999); PROTECT Act, Pub. L. No.
108-21, 117 Stat. 650, 665 (2003) (codified as amended at 42 U.S.C. § 5773);
PROTECT Our Children Act of 2008, Pub. L. No. 110-401, 122 Stat. 4229, 424348 (codified as amended at 18 U.S.C. § 2258A). See generally Our History,
NCMEC, http://www.missingkids.com/history (last visited July 7, 2016).
2

Compare 42 U.S.C. § 5773(b) (requiring NCMEC to, among other things,
operate a “national 24-hour toll-free telephone line,” “cyber tipline,” and “child
victim identification program,” provide “training” and “technical assistance” to
3

- 10 34a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 11

participate at varying levels in its daily operations, 4 and government officials
enjoy a sizeable presence on its board. 5 As much as 75 percent of its budget
(excluding in-kind donations) comes from the federal government. NCMEC
law enforcement agencies, and develop and disseminate “information” to a variety
of governmental and non-governmental entities), with DOT, 135 S. Ct. at 1232
(observing that “Congress has mandated certain aspects of Amtrak’s day-to-day
operations,” including “maintain[ing] a route between Louisiana and Florida,”
applying certain considerations when “making improvements to the Northeast
corridor,” and abiding by certain raw material source requirements when making
purchases of “more than $1 million”).
Representatives of multiple law enforcement agencies have offices in the
NCMEC building, including the FBI, Department of Homeland Security, U.S.
Marshals, U.S. Postal Inspection Service, and Department of Defense. R. vol. 3
at 246-47; United States v. Keith, 980 F. Supp. 2d 33, 41 (D. Mass. 2013) (“[The]
U.S. Marshals and other law enforcement personnel provide on-site support and
referral assistance for NCMEC’s Exploited Child Division.”). The FBI’s on-site
presence includes both a “supervisory special agent” assigned “full-time” to
NCMEC to “coordinate the use of both FBI and NCMEC resources and facilitate
the most effective response to . . . child pornography, and other cases” and an
“embedded intelligence analyst” who “addresses cyber tips” and “supports” the
Child Victim Identification Program. U.S. Dep’t of Justice, Office of Juvenile
Justice & Delinquency Prevention, Federal Resources on Missing and Exploited
Children 21-24 (6th ed. 2011). The Secret Service, too, provides forensic
services to NCMEC in the form of “polygraph examinations, handwriting and
fingerprint analysis, voiceprint comparisons, audio and video enhancements,
computer and other electronic media examinations, forensic photography, graphic
arts, research and identification, and the Operation Safe Kid Program.” Id. at 17;
see also 18 U.S.C. § 3056(f).
4

Almost a quarter of NCMEC’s board members represent government
agencies or law enforcement, including the FBI, U.S. Secret Service, U.S.
Marshals, Bureau of Alcohol, Tobacco, Firearms and Explosives, Immigration and
Customs Enforcement, Naval Criminal Investigative Service, U.S. Postal
Inspection Service, U.S. Nuclear Regulatory Commission, National Sheriffs’
Association, Fraternal Order of Police, and National Association of Attorneys
General. See Board of Directors, NCMEC,
http://www.missingkids.com/boardofdirectors (last visited July 7, 2016).
5

- 11 35a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 12

Amicus Br. at 9. Neither is there any question about the public benefit NCMEC
confers, for by all accounts its important work is essential to the identification
and prevention of child sexual exploitation crimes. Congress and NCMEC alike
have expressly said as much. See, e.g., 42 U.S.C. § 5771; National Center for
Missing & Exploited Children: Our Work, NCMEC, http://www.missingkids.
com/NCMEC (last visited July 7, 2016). Given all this and as a matter of
analogistic reasoning, it’s difficult to see how a quasi-public corporation like
Amtrak (a mere utility, really) might qualify as a governmental entity while
NCMEC, an entity afforded so many unique law enforcement powers, might not.
In the face of so much law and evidence suggesting NCMEC qualifies as a
governmental entity, the government offers almost no reply. In fact, its only
response is to question whether the question is properly before us. According to
the government, when Mr. Ackerman was before the district court he argued
merely that NCMEC is a governmental agent and failed to argue that NCMEC is
also a governmental entity. As a result, the government suggests, any “entity
argument” is waived. Of course, Mr. Ackerman avidly disputes the government’s
assessment and submits that he pursued both an agent and an entity theory before
the district court. But who is right about this much doesn’t much matter. It
doesn’t because the Supreme Court has specifically held that a defendant who
asserts an agency theory before the district court preserves an entity theory on
appeal. See Lebron, 513 U.S. at 378-79. And to this controlling direction the
- 12 36a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 13

government provides no answer. So it is that the government’s only response
turns out to be no real response at all.
Seeing the void left by the government, NCMEC offers a number of
substantive responses to Mr. Ackerman’s entity theory in its own amicus brief.
But ours is a party-directed adversarial system and we normally limit ourselves to
the arguments the parties before us choose to present. Amici briefs often serve
valuable functions, but those functions don’t include presenting arguments
forgone by the parties themselves or effectively and unilaterally expanding the
word limits established by rule for a favored party. Indeed, for just these reasons
(and more) this court has routinely declined to consider arguments presented only
in an amicus brief — and no one even attempts to offer us a reason to depart from
that practice here. See, e.g., Fed. R. App. P. 28; In re McGough, 737 F.3d 1268,
1277 n.8 (10th Cir. 2013); Tyler v. City of Manhattan, 118 F.3d 1400, 1403-04
(10th Cir. 1997).
Alternatively and anyway, the various arguments NCMEC offers do not
change the equation materially. In an effort to distinguish Lebron from its own
case, NCMEC argues that, unlike Amtrak, it and its CyberTipline existed for a
(brief) period of time before Congress passed statutes funding and mandating its
functions. But factually the distinction seems pretty unpersuasive, for many of
the assets of what later became Amtrak existed in private hands long before
Amtrak’s statutory authorization. And analytically we are uncertain why it
- 13 37a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 14

matters whether NCMEC was once private. For no one, NCMEC included, gives
us reason to doubt that even an admittedly private entity can be made into a
public one later by sufficient statutory action (consider the Tennessee Valley
Authority).
In an effort to establish that even today it is not a public entity, NCMEC
stresses that it receives some (unspecified amount of) in-kind donations from
private parties every year and engages in partnerships with private firms
interested in reducing child exploitation. But it remains undisputed that NCMEC
receives the bulk of its funding from the federal government and we are aware of
no authority suggesting that the existence of some (unspecified) amount of inkind private donations converts a public entity into a private one. Surely the local
public library would disagree — and so might Amtrak for it, too, receives plenty
of private funding (not merely in-kind donations) from paying customers. See 49
U.S.C. § 24301(a)(2) (“Amtrak . . . shall be operated and managed as a for-profit
corporation . . . .”). Neither is it unknown for public entities to partner with
private ones. See Partnerships and Outreach, FBI, https://www.fbi.gov/aboutus/partnerships_and_outreach (last visited July 7, 2016) (“To do its job, the FBI
works with both government and private sector partners every day . . . .”).
Next, NCMEC suggests it isn’t required to spend its federal funding in any
particular way. It may pursue the various law enforcement functions Congress
has identified, but it doesn’t have to do so. Here again we cannot agree. The law
- 14 38a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 15

expressly states that NCMEC’s federal funding “shall be used” for over a dozen
specifically enumerated functions. 42 U.S.C. § 5773(b). And while “shall” can
sometimes mean “may,” that’s the exception and not the rule, for the word is
generally considered “imperative or mandatory” in character. Black’s Law
Dictionary 1375 (6th ed. 1990). Neither do we see the case for an exception here.
Congress itself has described NCMEC’s functions as “duties and responsibilities
under Federal law.” 42 U.S.C. § 16961(a)(1). Neither does anyone dispute that
the use of “shall” in the first clause of § 5773(b) — providing that “[t]he
Administrator shall annually make a grant” to NCMEC — is mandatory in
character, and it seems most unlikely that the same word might bear a different
meaning in the second clause where NCMEC’s duties are described. After all, we
usually presume Congress means the same thing when it uses the same word more
than once in the same sentence. See Brown v. Gardner, 513 U.S. 115, 118 (1994).
Congress, too, appears to be well aware of the difference between “may” and
“shall” in the funding context, for in other similar grant-making statutes it has
indeed adopted the more permissive “may.” See, e.g., 42 U.S.C. § 16985(b)(2)
(“The Administrator shall annually make a grant to RAINN, which shall be used
for the performance of the organization’s national programs, which may include
. . . .” (emphasis added)). And in other contexts, too, even NCMEC itself has
seemed to characterize its work as mandatory. See, e.g., Michelle K. Collins,
Child Pornography: A Closer Look, The Police Chief, Mar. 2007, available at
- 15 39a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 16

http://goo.gl/LohIYz (the director of NCMEC’s Exploited Child Division
discussing “NCMEC’s congressionally mandated CyberTipline”).
Finally, NCMEC suggests that the statutes governing its operations are
“like” routine federal grant-making or state licensing statutes. But we just don’t
see how. Federal grantees and state licensees don’t typically enjoy (for example)
the statutory authority to receive contraband knowingly, backed by statutes
compelling private and public entities to cooperate with them. Neither do they
typically enjoy such powers in aid of traditionally public law enforcement
functions. Certainly at no point in these proceedings has NCMEC or the
government sought to identify a single federal grantee or state licensee with
anything fairly analogous to the sorts of statutory law enforcement powers and
duties NCMEC possesses.
II
Even if we are wrong and NCMEC isn’t a governmental entity, that doesn’t
necessarily mean its searches escape the Fourth Amendment’s ambit. After all,
since time out of mind the law has prevented agents from exercising powers their
principals do not possess and so cannot delegate. 1 William Blackstone,
Commentaries *417-20; Restatement (Second) of Agency § 17 (1958). That is a
rule of law the founders knew, understood, and undoubtedly relied upon when
they drafted the Fourth Amendment — for what would have been the point of the
Amendment if the government could have instantly rendered it a dead letter by
- 16 40a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 17

the simple expedient of delegating to agents investigative work it was forbidden
from undertaking itself? Indeed, it’s long since accepted that the Amendment’s
proscriptions apply not just to governmental entities but also to those who serve
as the government’s agents in particular cases. See Skinner v. Ry. Labor Execs.’
Ass’n, 489 U.S. 602, 614 (1989) (“Although the Fourth Amendment does not
apply to a search or seizure, even an arbitrary one, effected by a private party on
his own initiative, the Amendment protects against such intrusions if the private
party acted as an instrument or agent of the Government.”).
How can we tell if NCMEC acted as the government’s agent in this case?
An agency relationship is usually said to “result[] from the manifestation of
consent by one person to another that the other shall act on his behalf and subject
to his control, and consent by the other so to act.” Restatement (Second) of
Agency § 1. This manifestation and consent doesn’t have to be formalized in any
particular way. See id. §§ 15-16. Instead, the “authority to do an act can be
created by written or spoken words or other conduct of the principal which,
reasonably interpreted, causes the agent to believe that the principal desires him
so to act on the principal’s account.” Id. § 26. As well, a principal may delegate
general authority to his or her agent to act in the ordinary course, without
constant supervision or awareness of every discrete act. See id. § 7 cmt. c.
Neither has the common law traditionally required that the agent be an altruist,
acting without any intent of advancing some personal interest along the way (like
- 17 41a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 18

monetary gain). As clients know well, lawyers can serve as their agents all while
zealously charging by the hour. Instead, the question is usually simply whether
the agent acts with the principal’s consent and (in some way) to further the
principal’s purpose. See generally id. §§ 387-93. All these traditional agency
principles were reasonably well ensconced in the law at the time of the founding
and would seem the natural place to start in understanding the Amendment’s
original meaning and application to governmental agents. See generally Joseph
Story, Commentaries on the Law of Agency (6th ed., Little, Brown & Co. 1863)
(1839); United States v. Ellyson, 326 F.3d 522, 527 (4th Cir. 2003) (noting that
the governmental agent inquiry should be “guided by common law agency
principles”).
Admittedly, in recent years some courts have offered more stylized agency
tests for Fourth Amendment cases, which at first glance may appear to depart
from and demand more than the common law did to establish an agency
relationship. So, for example, some treat the Fourth Amendment agency inquiry
as a three-factor test. See, e.g., United States v. Silva, 554 F.3d 13, 18 (1st Cir.
2009) (analyzing “[1] the extent of the government’s role in instigating or
participating in the search, [2] its intent and the degree of control it exercises over
the search and the private party, and [3] the extent to which the private party aims
primarily to help the government or to serve its own interests”). Our court seems
to have adopted a two-part variation in United States v. Souza, 223 F.3d 1197
- 18 42a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 19

(10th Cir. 2000). Id. at 1201 (asking “1) whether the government knew of and
acquiesced in the intrusive conduct, and 2) whether the party performing the
search intended to assist law enforcement efforts or to further his own ends”).
Still others appear to collapse these same factors into “[o]ne highly pertinent
consideration.” Ellyson, 326 F.3d at 527.
But in this particular case it doesn’t much matter which agency test you
might wish to employ. Even under this court’s decision in Souza or similar
decisions adopted in other circuits it’s hard to see how we could avoid deeming
NCMEC the government’s agent in this case. Souza suggests that we should first
ask whether the government “knew of and acquiesced in” NCMEC’s putative
search. Here we know Congress statutorily required AOL to forward Mr.
Ackerman’s email to NCMEC; Congress statutorily required NCMEC to maintain
the CyberTipline to receive emails like Mr. Ackerman’s; Congress statutorily
permitted NCMEC to review Mr. Ackerman’s email and attachments; and
Congress statutorily required NCMEC to pass along a report about Mr.
Ackerman’s activities to law enforcement authorities. All at the government’s
expense and backed by threat of sanction should AOL have failed to cooperate.
All with special dispensation, too, to NCMEC to possess and review contraband
knowingly and intentionally. This comprehensive statutory structure seems more
than enough to suggest both congressional knowledge of and acquiescence in the
possibility that NCMEC would do exactly as it did here.
- 19 43a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 20

Of course and as the government notes, Congress’s statutes don’t require
NCMEC to open and view email and attachments like Mr. Ackerman’s. But
everyone accepts that Congress has authorized and funded NCMEC to do just
that. And everyone accepts that Congress enabled NCMEC to review Mr.
Ackerman’s email by excepting the Center from the myriad laws banning the
knowing receipt, possession, and viewing of child pornography. Nothing about
NCMEC’s actions could possibly have come as a surprise. Neither does anything
in Souza (or any other authority cited to us) suggest that the principal must
mandate rather than merely consent to the agent’s challenged conduct.
When it comes to Souza’s second factor, too, we harbor no doubt. Surely,
after all, NCMEC did as it did in this case with some “inten[tion] to assist” law
enforcement. As we’ve seen, Congress authorizes and funds NCMEC to perform
the functions it performed here because (and expressly premised on the finding
that) they are designed (intended) to help law enforcement. See, e.g., 42 U.S.C.
§ 5771. And of course NCMEC itself has acknowledged that it undertakes the
sort of conduct challenged here precisely because (at least in part) it intends to
aid law enforcement. About Us, NCMEC, http://www.missingkids.com/About
(last visited July 7, 2016) (explaining that NCMEC “provid[es] assistance to law
enforcement and families to find missing children, reduce child sexual
exploitation and prevent child victimization”).

- 20 44a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 21

Bolstering our confidence about all this is the Supreme Court’s leading
Fourth Amendment agency case, Skinner v. Railway Labor Executives’ Ass’n, 489
U.S. 602 (1989). There the Federal Railroad Administration promulgated
regulations requiring private railroads to test certain of their employees for illicit
drugs and authorizing (but not requiring) railroads to test certain other of their
employees. Id. at 609-12. The government acknowledged that the mandatory
testing requirements converted otherwise private railroads into governmental
agents for purposes of the Fourth Amendment, but it suggested that the
permissive testing requirements did not. The Supreme Court disagreed. Rather
than endorsing a rigid multi-part agency test of the sort some lower courts had by
that time devised, the Court seemed to follow the common law by asking simply
whether “the Government’s encouragement, endorsement, and participation” in
the permissive testing was enough to render otherwise private railroads agents of
the government for Fourth Amendment purposes. Id. at 615-16. And applying
that test here there can be little doubt of the result it yields. For the government
surely “encouraged and endorsed and participated” in NCMEC’s putative search
for the same reasons it “knew of and acquiesced in” that activity: Congress
funded the Center, required AOL to cooperate with it, allowed it to review Mr.
Ackerman’s email by excepting it from various federal criminal laws, and
statutorily mandated or authorized every bit of its challenged conduct.

- 21 45a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 22

Even if all that is true, and a finding of agency would be consistent with the
common law at the time of the founding, the test this court articulated in Souza,
and the test the Supreme Court applied in Skinner, the government suggests that
our prior decision in United States v. Poe, 556 F.3d 1113 (10th Cir. 2009), still
precludes us from holding that NCMEC acted as its agent in this case. In Poe,
this court faced the question whether bounty hunters who searched a home
qualified as governmental agents by virtue of the fact that the state of Oklahoma
regulated the bail bonds industry. Poe held not. Both because the mere licensing
and regulation of an industry wasn’t enough to suggest that the government knew
of or acquiesced in the particular search in question. And because the bounty
hunters’ purpose or intention in searching the house was to find a bail-jumping
suspect and so receive a reward from the bail bondsman that employed them.
Given that, Poe thought it fair to conclude that the bounty hunters intended to
help themselves or their employer (their true principal) but “did not intend to
assist law enforcement” at all. Id. at 1124.
Neither of the grounds on which Poe rested is present here. As we’ve
already acknowledged, a governmental licensing and regulation regime does not
always suffice to render the licensed or regulated party a governmental entity or
agent. After all private lawyers, doctors, and accountants are all licensed and
regulated by the state, yet they don’t (usually) qualify as governmental entities or
agents. But as we’ve already observed, too, in this case we don’t face a general
- 22 46a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 23

licensing or regulatory regime open to all qualified applicants but a statutory
grant of special law enforcement authority to a single entity and no other,
authorizing and encouraging it to perform functions no other private person or
entity may lawfully undertake. And as we’ve seen, helping law enforcement is at
least part of NCMEC’s intentions when it reviews emails pursuant to its statutory
tipline authority.
Admittedly, the government reads Poe differently than we do. It reads the
decision as suggesting that a private party who bears any private purpose cannot
serve as a governmental agent. But this reading is a misreading. After all, and as
we’ve seen, the common law recognized that agents routinely intend to serve their
principals with the further intention to make money for themselves. In Skinner,
too, the fact that the private railroads had private (economic) reasons for seeking
to curb drug abuse by railroad employees — and had sought to do so before the
government promulgated its regulations, 489 U.S. at 606-07 — was no barrier to
the Court’s determination that the statutory scheme converted the railroads into
governmental agents. And in United States v. Leffall, 82 F.3d 343 (10th Cir.
1996), this court likewise expressly explained that the agency question cannot be
resolved “simply” by “evaluat[ing] the private person’s state of mind — whether
his motive to aid law enforcement preponderates.” Id. at 347. Neither do we read
Poe as disagreeing with any of this standard stuff but as suggesting instead and
much more modestly that a question about a claim of agency may arise when a
- 23 47a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 24

private party bears no intention to assist the government. Or put another way,
when the agent serves a different principal and not the government. Nothing like
that complication is present here.
One final wrinkle remains to unfold on the agency question. The
government insists that whether NCMEC is a governmental agent is a question of
fact, permitting this court to reverse the district court’s determination only if it
clearly erred. For our part, we readily agree that this court is obligated to give
great deference to the district court’s findings of historic fact — something we
have done in our analysis above and find little difficulty doing, for the historic
facts are (materially) undisputed in this case. But having said that much, we
cannot agree with the government if it means to suggest that the deference we
owe to the district court’s factual findings extends to its definition of the “legal
concept” of agency, Restatement (Second) of Agency § 1 cmt. b, or to the
question whether the facts the district court found are sufficient to satisfy it. It is
for this court to decide (de novo) what the law is and whether the facts (as found
by the district court and so long as they are not clearly erroneous) satisfy its
demands. See Ornelas v. United States, 517 U.S. 690, 694-99 (1996) (holding
that appellate courts must review a district court’s determination of reasonable
suspicion and probable cause de novo, with deference to its findings of historic
fact); United States v. Ginglen, 467 F.3d 1071, 1074 (7th Cir. 2006)
(acknowledging Ornelas’s relevance to review of a governmental agency
- 24 48a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 25

determination). Nothing in the case the government purports to rely upon
abandons these stolid principles of appellate review found most everywhere in the
law. To the contrary, it explains quite rightly that “[w]e review the district
court’s findings of fact” relevant to an agency determination “under a clearly
erroneous standard,” but “review de novo the ultimate question of constitutional
law,” Leffall, 82 F.3d at 347 — and the Fourth Amendment agency question is
unquestionably one of constitutional law.
III
Assuming NCMEC is a governmental entity or agent, its actions still
implicate the Fourth Amendment only if a “search” took place here. On first
blush, the answer to that question might seem obvious. No one in this appeal
disputes that an email is a “paper” or “effect” for Fourth Amendment purposes, a
form of communication capable of storing all sorts of private and personal details,
from correspondence to images, video or audio files, and so much more. See
United States v. Cotterman, 709 F.3d 952, 964 (9th Cir. 2013) (en banc); cf.
United States v. Lichtenberger, 786 F.3d 478, 489 (6th Cir. 2015). The
undisputed facts show, too, that NCMEC opened Mr. Ackerman’s email, found
four attachments, and proceeded to view each of them. 6 And that sort of
The record shows that what NCMEC received from AOL was an email —
technically, a .eml file — which contained the four attachments. See R. vol. 3 at
15-16 (law enforcement describing the “.eml file” as the “actual file that AOL
sends through [NCMEC’s] Tipline,” which, when opened, “show[s] . . . the email” with “four attachments” inside); id. at 221-22 (NCMEC’s Executive
6

- 25 49a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 26

rummaging through private papers or effects would seem pretty obviously a
“search.” After all, if opening and reviewing “physical” mail is generally a
“search” — and it is, Ex Parte Jackson, 96 U.S. 727, 733 (1877); United States v.
Van Leeuwen, 397 U.S. 249, 251 (1970) — why not “virtual” mail too?
Admittedly, it’s an open question whether the Supreme Court’s so-called
“third-party doctrine” might undermine any claim to Fourth Amendment
protections when someone (like Mr. Ackerman) engages a private agent (like
AOL) to deliver his correspondence. The Court has, after all, suggested that
individuals lack any reasonable expectation of privacy and so forfeit any Fourth
Amendment protections in materials they choose to share with third parties like
banks or telephone companies. See, e.g., United States v. Miller, 425 U.S. 435,
440-43 (1976); Smith v. Maryland, 442 U.S. 735, 742-46 (1979). And lower
courts have only begun to consider whether (and to what extent) the doctrine
should be extended to email where (as here) a subscriber relies on a commercial
ISP to store and deliver it. Compare United States v. Forrester, 512 F.3d 500,
510-11 (9th Cir. 2007) (finding no Fourth Amendment protection for the “to/from
addresses of e-mail messages”), with United States v. Warshak, 631 F.3d 266,
283-88 (6th Cir. 2010) (finding Fourth Amendment protection for email contents).
But the district court didn’t rely upon third-party doctrine in ruling against Mr.
Director of the Exploited Child Division explaining that “[i]n this case there is
one uploaded file,” a “.eml file,” which NCMEC did not “alter, manipulate, [or]
change,” with “four images located within [the] uploaded file”).
- 26 50a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 27

Ackerman. Exactly to the contrary, throughout its decision the court assumed that
Mr. Ackerman had a reasonable expectation of privacy in his email. And though
we may of course affirm the district court’s judgment on any basis the record
supports, we think making the attempt here imprudent given that the district court
has yet to make any factual findings relevant to Mr. Ackerman’s subjective
expectations of privacy or the objective reasonableness of those expectations in
light of the parties’ dealings (e.g., the extent to which AOL regularly accessed
emails and the extent to which users were aware of or acquiesced in such access).
Facts that could well impact the legal analysis. See, e.g., Harper v. P. Urbana,
P.A., 342 F. App’x 380, 382 (10th Cir. 2009).
A
Even so, the government says there’s another Fourth Amendment doctrine
that compels a ruling in its favor, one the district court did cite and rely upon, this
one called the “private search” doctrine and often associated with United States v.
Jacobsen, 466 U.S. 109 (1984). In that case, FedEx employees opened a damaged
package, found suspicious plastic bags of white powder inside, and passed the
parcel to the government, along with a description of what they’d found. Id. at
111. A DEA agent then repeated the same investigation, opening the package and
examining its contents. Id. Finally, he subjected the white powder to a chemical
drug test to confirm it was cocaine. Id. at 111-12. Considering all this, the
Supreme Court held that no “search” implicating the Fourth Amendment had
- 27 51a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 28

taken place because there was a “virtual certainty” that (but for one thing) the
government could have discovered “nothing else of significance” in the package
nor learned anything beyond what it had “already . . . been told” by a private
party. Id. at 119.
The one thing, of course, was the drug test. FedEx didn’t test the chemical
composition of the white powder and the government did. And so you might well
ask, why isn’t at least that a search implicating the Fourth Amendment? The
Court acknowledged that the drug test promised to (and surely did) reveal
information previously unknown to FedEx. Yet the Court proceeded to hold that
the drug test still didn’t qualify as a Fourth Amendment search because it “merely
disclose[d]” whether the powder was contraband “and no other arguably ‘private’
fact.” Id. at 123. In these circumstances, the Court announced, the government’s
apparent search was no search at all because it compromised no “legitimate
privacy interest” within the meaning of Katz v. United States, 389 U.S. 347
(1967). Jacobsen, 466 U.S. at 123.
Accepting our obligation as a lower court to apply both aspects of
Jacobsen’s private search doctrine faithfully, we fail all the same to see how they
might help the government in this case. Yes, AOL ran a search that suggested a
hash value match between one attachment to Mr. Ackerman’s email and an image
AOL employees had previously identified as child pornography. But AOL never
opened the email itself. Only NCMEC did that, and in at least this way exceeded
- 28 52a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 29

rather than repeated AOL’s private search. Neither is there any doubt NCMEC’s
search of the email itself quite easily “could [have] disclose[d]” information
previously unknown to the government besides whether the one attachment
contained contraband. Id. at 122. Indeed, when NCMEC opened Mr. Ackerman’s
email it could have learned any number of private and protected facts, for (again)
no one before us disputes that an email is a virtual container, capable of storing
all sorts of private and personal details, from correspondence to other private (and
perfectly legal) images, video or audio files, and beyond. See, e.g., Warshak, 631
F.3d at 284. And we know, too, that this particular container did contain three
additional attachments, the content of which AOL and NCMEC knew nothing
about before NCMEC opened them too. As far as anyone knew at the time, they
could have revealed virtually any kind of noncontraband information to the prying
eye.
Our view about the inapplicability of Jacobsen’s private search doctrine
finds support in at least two related cases. In United States v. Place, 462 U.S.
696 (1983), the Court held that a dog sniff of luggage by a “well-trained narcotics
detection dog” didn’t offend the Fourth Amendment because it didn’t “require
opening the luggage” and could have suggested only the presence or absence of
“contraband items.” Id. at 707 (quoted in Jacobsen, 466 U.S. at 124).
Meanwhile, in Walter v. United States, 447 U.S. 649 (1980), the Court held law
enforcement’s projection and viewing of films did implicate the Constitution
- 29 53a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 30

because the prior private search was much narrower, involving only the visual
inspection of the labels on the outside of the film boxes. See id. at 656-60
(opinion of Stevens, J.). As interpreted by the Court in Jacobsen, the analytical
thread stitching together these results and its own is the question whether “the
governmental conduct could [have] reveal[ed] nothing about noncontraband
items.” 466 U.S. at 124 n.24. In Place and Jacobsen, the government’s conduct
could have revealed nothing about noncontraband items, so no “search” took
place within the meaning of the Fourth Amendment. In Walter, by contrast, the
government’s conduct could have revealed something previously unknown about
noncontraband items, so a constitutionally triggering “search” did take place.
And by the same reasoning the same result should follow here.
At this point you might wonder about a similar but different scenario than
the one we confront today. What if NCMEC hadn’t opened Mr. Ackerman’s
email but had somehow directly accessed (only) the (one) attached image with the
matching hash value? Could the government have argued that, in that case,
NCMEC’s actions didn’t risk exposing any private information beyond what AOL
had already reported to it? Or might even that have risked exposing new and
protected information, maybe because the hash value match could have proven
mistaken (unlikely if not impossible) or because the AOL employee who
identified the original image as child pornography was mistaken in his assessment
(unlikely if maybe more possible)? See Salgado, supra, at 45-46. Interesting
- 30 54a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 31

questions, to be sure, but ones we don’t have to resolve in this case. We don’t
because the undisputed facts before us indicate that NCMEC opened Mr.
Ackerman’s email first and did so before and in order to view not just the
attachment that was the target of AOL’s private search but three others as well.
And as we’ve seen, each of these steps — opening the email and viewing the
three other attachments — was enough to risk exposing private, noncontraband
information that AOL had not previously examined.
B
Our conclusion about this is confirmed by yet another and distinct line of
authority. Jacobsen said no “search” implicating the Fourth Amendment took
place even when officers exceeded the scope of the search previously performed
by the private party and removed and destroyed a small amount of powder to
conduct a drug test. In doing so, Jacobsen invoked Katz and held there was no
“reasonable expectation of privacy” in concealing whether something is or isn’t
contraband. See 466 U.S. at 122-23. But after United States v. Jones, 132 S. Ct.
945 (2012), there’s reason to wonder about that conclusion. After all, Jones held
that the Katz formula is but one way to determine if a constitutionally qualifying
“search” has taken place. Id. at 949-51. In light of the Fourth Amendment’s
original meaning, Jones explained that government conduct can constitute a
Fourth Amendment search either when it infringes on a reasonable expectation of
privacy or when it involves a physical intrusion (a trespass) on a constitutionally
- 31 55a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 32

protected space or thing (“persons, houses, papers, and effects”) for the purpose
of obtaining information. So the fact the government’s conduct doesn’t trigger
Katz doesn’t mean it doesn’t trigger the Fourth Amendment. Id. at 950 (“Fourth
Amendment rights do not rise or fall with the Katz formulation. . . . [F]or most of
our history the Fourth Amendment was understood to embody a particular
concern for government trespass upon the areas . . . it enumerates. Katz did not
repudiate that understanding.”).
Reexamining the facts of Jacobsen in light of Jones, it seems at least
possible the Court today would find that a “search” did take place there. After
all, the DEA agent who performed the drug test in Jacobsen took and destroyed a
“trace amount” of private property, 466 U.S. at 125, a seeming trespass to
chattels. Neither is there any question that the purpose and effect of the agent’s
action was to obtain information. See id. at 122-23. And while the destruction of
only a “trace amount” of private property might not amount to a trespass under
modern tort law, even less was required to establish a claim of trespass to chattels
at the time of the founding — and we know the Fourth Amendment is no less
protective of persons and property against governmental invasions than the
common law was at the time of the founding. Jones, 132 S. Ct. at 950, 953; id. at
957 n.2 (Alito, J., concurring in the judgment) (“At common law, a suit for
trespass to chattels could be maintained if there was a violation of ‘the dignitary
interest in the inviolability of chattels,’ but today there must be ‘some actual
- 32 56a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 33

damage to the chattel before the action can be maintained.’” (quoting W. Keeton
et al., Prosser & Keeton on Law of Torts § 14, at 87 (5th ed. 1984))).
Given the uncertain status of Jacobsen after Jones, we cannot see how we
might ignore Jones’s potential impact on our case. And its impact here seems
even clearer than in Jacobsen. After all, we are not dealing with a governmental
drug test that destroyed but a trace amount of potential contraband. We are
dealing instead with the warrantless opening and examination of (presumptively)
private correspondence that could have contained much besides potential
contraband for all anyone knew. And that seems pretty clearly to qualify as
exactly the type of trespass to chattels that the framers sought to prevent when
they adopted the Fourth Amendment. See, e.g., 1 Thomas M. Cooley, The
General Principles of Constitutional Law in the United States of America 212 &
n.2 (1880); Thomas M. Cooley, A Treatise on the Constitutional Limitations
Which Rest upon the Legislative Power of the States of the American Union 306
n.2 (1868); Ex parte Jackson, 96 U.S. at 733. Of course, the framers were
concerned with the protection of physical rather than virtual correspondence. But
a more obvious analogy from principle to new technology is hard to imagine and,
indeed, many courts have already applied the common law’s ancient trespass to
chattels doctrine to electronic, not just written, communications. See, e.g., eBay,
Inc. v. Bidder’s Edge, Inc., 100 F. Supp. 2d 1058, 1063, 1069-70 (N.D. Cal.
2000); CompuServe Inc. v. Cyber Promotions, Inc., 962 F. Supp. 1015, 1019,
- 33 57a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 34

1027 (S.D. Ohio 1997); Thrifty-Tel, Inc. v. Bezenek, 46 Cal. App. 4th 1559, 156567 (1996). So it seems that, whether we analyze the “search” question through
the lens of the government’s preferred authority — Jacobsen and Katz — or
through the lens of the traditional trespass test suggested by Jones, they yield the
same (and pretty intuitive) result: NCMEC conducted a “search” when it opened
and examined Mr. Ackerman’s email.
IV
Having determined that NCMEC is a governmental entity or agent and that
it searched Mr. Ackerman’s email without a warrant, at this point you might
wonder whether the government could argue that NCMEC’s search still qualifies
as a “reasonable” one because of, say, exigent circumstances or the “special
needs” doctrine. Or whether any Fourth Amendment violation in opening the
email or the three other attachments was too attenuated from the discovery of
incriminating evidence in the matching hash value attachment to justify exclusion
as the appropriate remedy. Or whether suppression might also be an
inappropriate remedy because NCMEC acted in “good faith.” But the government
argues none of these points in this appeal, seeming instead to accept that if
NCMEC was a governmental entity or agent and if its opening of the email was
an unwarranted search, then its subsequent discovery of four attached images of
child pornography was “fruit of a poisonous tree” and should be suppressed.
Indeed, the closest the government comes to briefing any of these questions is to
- 34 58a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 35

tell us it incorporates by reference the good faith arguments it presented to the
district court. Even though this court has repeatedly instructed (both in rule and
case law) that this sort of mechanical “[i]ncorporating by reference portions of
lower court or agency briefs or pleadings” is insufficient to preserve a point for
appellate review. 10th Cir. R. 28.4; see also Gaines-Tabb v. ICI Explosives, USA,
Inc., 160 F.3d 613, 623-24 (10th Cir. 1998).
So with that, our encounter with this case comes to an end — at least for
now. Surely hard questions remain to be resolved on remand, not least the
question whether the third-party doctrine might preclude Mr. Ackerman’s claim to
the Fourth Amendment’s application, a question the government has preserved
and the district court and we have reserved. But about one thing we can be very
certain. There can be no doubt that NCMEC does important work and that its
work can continue without interruption. After all, it could be that the third-party
doctrine will preclude motions to suppress like Mr. Ackerman’s. Or that changes
in how reports are submitted or reviewed might allow NCMEC to access
attachments with matching hash values directly, without reviewing email
correspondence or other attachments with possibly private, noncontraband content
— and in this way perhaps bring the government closer to a successful invocation
of the private search doctrine. Or it may be possible that the government could
cite exigent circumstances or attenuation doctrine or special needs doctrine or the
good faith exception to excuse warrantless searches or avoid suppression in at
- 35 59a

Appellate Case: 14-3265

Document: 01019668150

Date Filed: 08/05/2016

Page: 36

least some cases. But even if not a single one of these potential scenarios plays
out — and we do not mean to prejudge any of them — we are confident that
NCMEC’s law enforcement partners will struggle not at all to obtain warrants to
open emails when the facts in hand suggest, as they surely did here, that a crime
against a child has taken place.
The district court’s denial of the motion to suppress is reversed. The case
is remanded for further proceedings consistent with this opinion.

- 36 60a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 1 of 22

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
UNITED STATES OF AMERICA,
Plaintiff,

vs.

Case No. 13-10176-01-EFM

WALTER ACKERMAN,
Defendant.

MEMORANDUM AND ORDER
This matter comes before the Court on Defendant Walter Ackerman’s Motion to
Suppress (Doc. 13). Defendant seeks the suppression of an email and its attachments arguing
that they were obtained through an illegal search and seizure.

Defendant also seeks the

suppression of certain statements asserting that he should have been given a Miranda warning
because his meeting with law enforcement was a custodial interrogation. The Court held a
hearing on May 19 and 20, 2014. Because the Court finds that AOL and the National Center for
Missing and Exploited Children (“NCMEC”), the parties who searched Defendant’s emails, are
not state actors, the Fourth Amendment is inapplicable to their conduct in this case. In the
alternative, even if NCMEC’s search could be considered a government search, NCMEC’s
search did not exceed the scope of AOL’s search in such a way that would be constitutionally
significant. Finally, with regard to Defendant’s statements to law enforcement, the Court finds

Appendix D
61a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 2 of 22

that Defendant’s meeting was not a custodial interrogation, and thus, the Court will not suppress
Defendant’s statements. Accordingly, the Court denies Defendant’s motion.
I.

Factual and Procedural Background1

A. Background on AOL
AOL, formerly known as American Online and Quantum Computer Services, is an
internet service provider. As part of AOL’s services, it offers free and premium (paid) email
service to its users.

To use AOL’s services, AOL requires its users to agree to its Terms of

Service (“TOS”). As of April 19, 2013, these TOS state that a user must:
a.

Comply with applicable laws and regulations and not participate in, facilitate, or
further illegal activities;
...

d. Not post content that contains explicit or graphic descriptions or accounts of
sexual acts or is threatening, abusive, harassing, defamatory, libelous, deceptive,
fraudulent, invasive of another’s privacy, or tortious;
e. Not engage in an activity that is harmful to us or our customers, advertisers,
affiliates, vendors, or anyone else
...
To prevent violations and enforce this TOS and remediate any violations, we can
take any technical, legal, and other actions that we deem, in our sole discretion,
necessary and appropriate without notice to you.
An AOL user is required to agree to these TOS if they have an account with AOL. If
AOL makes changes to the TOS, AOL sends an email to the user’s email address stating the date
that the new TOS will become effective. A user’s log-in after the effective date implies consent
to accept the new TOS.
1

The following facts are based on the parties’ written briefs and from testimony given at the suppression
hearing held on May 19 and 20, 2014. The Court allowed NCMEC to file an amicus brief in this case. Counsel
representing NCMEC appeared at the suppression hearing and provided a brief summation of NCMEC’s position at
the close of the government’s and Defendant’s evidence.

-262a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 3 of 22

AOL employs an Image Detection and Filtering Process (“IDFP”), an automated program
that systematically scans emails sent, saved, or forwarded from an AOL account to scan for
malware, viruses, and illegal images such as child pornography. As part of this IDFP, AOL
developed and maintains a database of hash values associated with child pornography. A hash
value is derived from a specific digital file and is an alphanumeric sequence that is unique to that
digital file.
Greg Phillips, AOL’s Senior Technical Security Investigator, testified as to how AOL
developed this database of hash values. Historically, people would report to AOL when they
would receive a file containing child pornography. AOL’s graphic review team would then look
at that file to determine if the image met the definition of child pornography. Once AOL made
this determination, it would take a hash value of that file (child pornography image) and add it to
its database. AOL uses a MD5 hash value. The MD5 hash value contains approximately thirty
digits, and the hash value is derived from the image based on a computation from an algorithm.
A hash value is sometimes referred to as a digital fingerprint because the hash value is unique to
a specific digital file. Any alteration of the image or file would result in a different hash value.
AOL does not obtain hash values from any outside company and has only developed its
database of hash values from the graphics review team at AOL. AOL’s database has grown from
zero to approximately 100,000 hash values.

AOL does not retain the images of child

pornography.
When AOL, through its IDFP, detects a file that matches a hash value in its database, the
email is captured, and AOL terminates the user’s account pursuant to its TOS. AOL then
generates a report and creates a new email to send to NCMEC via NCMEC’s CyberTipline.
AOL’s email and report includes the intercepted email and attached file(s); the user’s account
-363a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 4 of 22

information; and the IP address of where the member was logged on. By statute, 18 U.S.C.
§ 2258A(a)(1), an internet service provider (such as AOL) is required to report to NCMEC’s
CyberTipline any child pornography it “obtains actual knowledge of . . . as soon as reasonably
possible.”
Mr. Phillips testified that AOL utilizes its IDFP to protect its business interests. He
stated that AOL wants to protect its reputation and brand because it does not want to be
associated with illegal activity. In addition, AOL wants its customers to stay with AOL and feel
safe and secure.
B. Background on National Center for Missing and Exploited Children (“NCMEC”)
NCMEC is a 501(c)(3) nonprofit organization established in 1984. Its headquarters are in
Alexandria, Virginia. John Shehan, Executive Director of the Exploited Child Division at
NCMEC, testified that NCMEC’s mission is to help reunite families with missing children,
reduce child sexual exploitation, and prevent child victimization. NCMEC receives it funding
through federal grants, individual donations, and in-kind donations. Approximately seventy-five
percent of its funding comes from federal grants, and twenty-five percent from private donations.
The in-kind donations are calculated on top of that percentage.
NCMEC has five main divisions: missing children; child sexual exploitation; training;
child safety and prevention; and child victim and family support. In the child sexual exploitation
division, there are three main programs: the CyberTipline, the child victim identification
program, and net smarts 411 (an internet safety help desk and hotline). NCMEC’s CyberTipline
is at issue in this case.

-464a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 5 of 22

1.

NCMEC’s CyberTipline

NCMEC launched the CyberTipline in March 1998. It was created though a generous
donation from a private company, and it was created to provide a central location to report
information regarding child sexual exploitation.

The CyberTipline provides online users,

members of the general public, and internet service providers a way to report suspected child
sexual exploitation either online or through its 24-hour toll free hotline. About one thousand of
the approximate 5,000 internet service providers in the United States have a reporting
relationship with the NCMEC.

These internet service providers submit their CyberTipline

reports online through the NCMEC’s secure portal.

By statute, 18 U.S.C. §2258A(c)(1),

NCMEC must forward any report made through the CyberTipline (under 18 U.S.C.
2258A(a)1)(a)) to an appropriate law enforcement agency.2
After a report is made to the CyberTipline, a NCMEC analyst will review the information
that was provided. The analyst views the file to determine if it contains child pornography. If
so, there is a section on the report stating “Child Pornography (Confirmed).” The analysis,
however, does not include any information or description about the images. The NCMEC
analyst also takes the IP address and the email address provided in the CyberTipline report and
uses publicly available search engines and tools in an effort to identify the sender’s geographic
location. After the analyst finds the geographic location and completes the report, the report is
made accessible to law enforcement. NCMEC sends a daily email that provides a brief summary
of the reports just made available. Law enforcement then uses NCMEC’s secure, virtual private

2

When NCMEC launched its CyberTipline, there was not a reporting statute.

-565a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 6 of 22

network to access and obtain the report. Access is limited through the virtual private network on
a report by report and recipient by recipient basis.
C. Facts and Procedural History as to Defendant Walter Ackerman
Defendant Walter Ackerman was a user of AOL Mail and used the screen name
“plains66952.”

On

April

22,

2013,

AOL’s

IDFP

detected

an

email

sent

by

“plains66952@aol.com” to “zoefeather@riseup.net,” which contained a hash value of previously
identified child pornography. As a result of AOL’s discovery that Defendant violated AOL’s
TOS, AOL immediately terminated Defendant’s account.
AOL submitted a report to NCMEC on April 23, 2013. This report included the email
header information, including the involved usernames, the IP address of the sender, and the IDFP
hash value. After receiving the report, NCMEC confirmed the presence of child pornography.
After conducting its investigation and establishing that the likely geographic location of the
sender was in Kansas, NCMEC forwarded the tip to the Kansas Internet Crimes Against
Children (“ICAC”) Task Force in the Wichita/Sedgwick County Exploited and Missing
Children’s Unit (“EMCU”). Detective Wright, who is assigned to ICAC in Wichita, Kansas,
requested the assistance of Special Agent Rick Moore (“SA Moore”) of the Department of
Homeland Security.
On May 17, 2013, SA Moore accessed and reviewed the CyberTipline report. SA Moore
then began his investigation and started with confirmation of the ISP for the identified IP
address. He issued a subpoena for that IP address as it was utilized on April 22, 2013. On May
21, 2013, SA Moore received the subscriber information from the ISP, which identified the IP
address assigned to Michelle Ackerman in Lebanon, Kansas. The ISP also showed an additional
authorized contact of Walter Ackerman.
-666a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 7 of 22

On May 22, 2013, SA Moore served AOL with a preservation letter for email account
plains66952@aol.com. On May 24, 2013, SA Moore applied for and obtained a search warrant
for Defendant’s residence in Lebanon, Kansas. On May 30, 2013, SA Moore executed the
search warrant at Defendant’s residence. Defendant’s wife was at home, but Defendant was not.
Defendant’s wife stated that Defendant was at work in Beloit, Kansas. In executing the search
warrant, agents found multiple digital items that revealed the presence of child pornography.
On that same day, SA Moore and SA Erin Russell went to Defendant’s work. They were
dressed in civilian clothes, and they covered their badges and guns. The agents contacted the
manager and identified themselves by showing their credentials. They asked if they could speak
to Defendant in a private area. The agents identified themselves to Defendant by showing him
their credentials. SA Moore asked Defendant if he would speak to him in the private room that
the manager had provided. Defendant said yes.
When walking into the private room, SA Moore activated a recorder. Defendant did not
notice the recorder until approximately twenty-two minutes into the interview. The interview is
approximately seventy-five minutes long, and all of it is recorded. During the interview, the
agents informed Defendant that he was not under arrest.

SA Moore then informed Defendant

that they had conducted a search warrant at his house. Defendant indicated that he knew what
the search warrant would be related to by stating “child pornography.” SA Moore informed
Defendant several times throughout the interview that Defendant was not under arrest. SA
Moore also concluded the interview by stating that Defendant was not under arrest and that he
would be providing the information to prosecutors for a later determination regarding charges.
On November 6, 2013, a grand jury indicted Defendant on one count of distribution of
child pornography, a violation of 18 U.S.C. § 2252(a)(2), occurring on or about April 22, 2013,
-767a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 8 of 22

and one count of possession of child pornography, a violation of 18 U.S.C. § 2252(a)(4)(B),
occurring on or about May 30, 2013. Defendant has now filed a Motion to Suppress (Doc. 13).
The Court held a hearing on May 19 and 20, 2014.
II.

Analysis

Defendant seeks the suppression of the email and its attachments contending that it was
obtained through an illegal search and seizure.

Defendant also seeks suppression of his

statements to police officers at a meeting at his work. The Court will address each issue in turn.
A. Suppression of Defendant’s Email and the Contents of any Attachments to that Email
The government brings up approximately three broad issues encompassing six questions
surrounding the alleged search and seizure of Defendant’s email document. The Court will not
address all of these issues. Instead, the Court will assume, without deciding, that Defendant has
a reasonable expectation of privacy in his email. The Court will then address two issues
surrounding AOL’s and NCMEC’s conduct in this case. The first issue is whether AOL or
NCMEC should be considered a state actor such that Fourth Amendment principles are
applicable. The second issue is even if NCMEC could be considered a state actor, whether
NCMEC’s search expanded AOL’s search in a constitutionally significant way.
1. AOL and NCMEC are not state actors such that Fourth Amendment principles
are applicable.
The Fourth Amendment is “wholly inapplicable to a search or seizure, even an
unreasonable one, effected by a private individual not acting as an agent of the Government or
with the participation or knowledge of any governmental official.”3 “A search by a private

3

United States v. Benoit, 713 F.3d 1, 9 (10th Cir. 2013) (citing United States v. Jacobsen, 466 U.S. 109,
113-14 (1984)).

-868a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 9 of 22

person becomes a government search if the government coerces, dominates, or directs the actions
of a private person conducting the search.”4 To determine whether a search by a private person
becomes a government search, there is a two-part inquiry: “1) whether the government knew of
and acquiesced in the intrusive conduct, and 2) whether the party performing the search intended
to assist law enforcement efforts or to further his own ends.”5 With regard to the first prong,
knowledge and acquiescence “encompass the requirement that the government agent must also
affirmatively encourage, initiate, or instigate the private action.”6 As to the second part of the
test, the Court does not simply inquire as to whether police benefitted from the private party’s
conduct but instead must determine whether the private party had a “legitimate, independent
motivation” in performing the search.7

Both parts of the test must be fulfilled before the private

search will be considered a government search.8 “The totality of the circumstances guides the
court’s determination as to whether the two-part inquiry has been met.”9
a.

AOL is not a state actor and the Fourth Amendment is not applicable.

The first part of the test requires knowledge and acquiescence by a government official.
Defendant argues that AOL’s search is a government search and attempts to rely upon
Congressional testimony for this proposition. It appears that Defendant is suggesting that the
government (through Congress) pressured internet service providers, like AOL, to implement
4

United States v. Souza, 223 F.3d 1197, 1201 (10th Cir. 2000) (quotation marks and citation omitted).

5

Id. (citing Pleasant v. Lovell, 876 F.2d 787, 796 (10th Cir. 1989)).

6

United States v. Smythe, 84 F.3d 1240, 1243 (10th Cir. 1996).

7

United States v. Poe, 556 F.3d 1113, 1124 (10th Cir. 2009) (citing Smythe, 84 F.3d at 1240). See also
Souza, 223 F.3d at 1202.
8

Souza, 223 F.3d at 1201.

9

Id.

-969a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 10 of 22

technology to gather information about child pornography to assist law enforcement. Thus,
Defendant contends that a government official had knowledge of or acquiesced in AOL’s
conduct because the government encouraged the implementation of technology.
As an initial mater, the Court questions the appropriateness of Defendant’s reliance on
hearsay Congressional testimony for this proposition.

More substantively, however,

Congressional hearings regarding internet service provider’s implementation of technology to
detect child pornography does not demonstrate participation or knowledge of a government
official in AOL’s search in this case. It simply demonstrates that members of Congress, i.e., the
government, may be generally aware of internet service providers’ technology in searching for
child pornography.
Although Congress enacted 18 U.S.C. § 2258A(a) to require internet service providers to
report discovered child pornography, 18 U.S.C. § 2258A(f) specifically states that an internet
service provider is not required to monitor its users or affirmatively seek child pornography
transmitted by its users. Compliance with a reporting statute is quite different than a government
agent directing one’s actions.

In addition, although the Tenth Circuit has not specifically

addressed this question, several other circuit courts of appeal have determined that § 2258A(a)’s
(or the predecessor statute to § 2258A) reporting requirement does not transform an internet
service provider’s private actions into government actions.10
10

See United States v. Stevenson, 727 F.3d 826, 829-30 (8th Cir. 2013) (determining that 18 § U.S.C.
2258A’s reporting requirements did “not transform an Internet service provider into a government agent whenever it
chooses to scan files sent on its network for child pornography.”); United States v. Cameron, 699 F.3d 621, 637-38
(1st Cir. 2012) (addressing the predecessor statute, 42 U.S.C. § 13032(b)(1), and finding that although the statute
required Yahoo! to report child pornography, there was no obligation to search for it and therefore the government
did not exercise control over Yahoo!’s actions); United States v. Richardson, 607 F.3d 357, 364-67 (4th Cir. 2010)
(addressing the predecessor statute, 42 U.S.C. § 13032(b)(1), and finding that “the statutory provision pursuant to
which AOL reported [the defendant’s] activities did not effectively convert AOL into an agent of the Government
for Fourth Amendment purposes.”).

-1070a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 11 of 22

Furthermore, there is no evidence to suggest that the government and law enforcement
knew of or acquiesced in AOL’s conduct with regard to the search of this Defendant’s email in
this case in any way. Here, AOL, through its IDFP, simply compared the hash value of a
transmitted file to its database of hash values previously associated with child pornography with
no government involvement. Thus, Defendant has no evidence with regard to the first prong of
the Tenth Circuit’s test that the government knew of or acquiesced in AOL’s conduct.
As to the second prong—whether AOL intended to assist law enforcement or further its
own ends—AOL’s representative testified that AOL employs the IDFP to protect its own
business interest and reputation.11 Specifically, AOL does not want to be associated with illegal
activity and wants to keep its customers safe and secure. Thus, with regard to the second prong,
the evidence demonstrates that AOL was furthering its own ends when performing the search
and had a legitimate, independent motivation in performing the search.12 Accordingly, AOL is
not a state actor, and Fourth Amendment principles are inapplicable to its conduct.
b. NCMEC is not a state actor and the Fourth Amendment is not applicable.
Defendant also contends that NCMEC’s conduct constitutes a government search and
relies heavily on an opinion from the District of Massachusetts, United States v. Keith,13 for this
proposition.

In the Keith decision, the court analyzed NCMEC’s conduct under the First

Circuit’s three-factor test for determining whether a private party effectively acts as a
11

Both prongs of the test must be met to establish a government search. Souza, 223 F.3d at 1201.
Although the Court has found that Defendant cannot meet the first prong, the Court will still address the second
prong.
12

A recent case from the District of Massachusetts addressed AOL’s role and also found that “AOL is
motivated by its own wholly private interests in seeking to detect and deter the transmission of child pornography
though its network facilities.” United States v. Keith, 980 F. Supp. 2d 33, --, 2013 WL 5918524, at *5 (D. Mass.
2013).
13

Id.

-1171a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 12 of 22

government agent in conducting a search.14 The First Circuit’s three-part test requires a court to
consider: “(1) the extent of the government’s role in instigating or participating in the search; (2)
the government’s intent and the degree of control it exercises over the search and the private
party; and (3) the extent to which the private party aims primarily to help the government or to
serve its own interests.”15
As to the first factor, the District of Massachusetts found that because Congress
authorizes and funds the CyberTipline that the government instigated the search.16 Regarding
the second factor, the court determined that 18 U.S.C. § 2258A(c)(1)-(2) requires NCMEC to
report discovered child pornography to law enforcement, and thus the government “controlled”
NCMEC’s search.17 Finally, as to the third factor, the court found that NCMEC’s CyberTipline
served no private purpose for NCMEC, separate from assisting law enforcement.18 Thus, the
court concluded that “NCMEC’s examination of the contents of that emailed image file violated
the Fourth Amendment because it was not authorized by a duly issued warrant (or by some
constitutionally adequate substitute).”19
The Court finds the Keith court’s reasoning as to whether NCMEC’s conduct constitutes
government action inapplicable here. Not only does the Court disagree with several of the Keith
court’s factual conclusions, but the Keith decision employed a three-part test required by the
14

Id. at *5 (citing United States v. Silva, 554 F.3d 13, 18 (1st Cir. 2009)). The Tenth Circuit has a twofactor test, and the differences between the Tenth and First Circuit’s test will be discussed below.
15

Id. (citing Silva, 554 F.3d at 18).

16

Id. at *6.

17

Id.

18

Id.

19

Id. at *12.

-1272a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 13 of 22

First Circuit. This Court must employ the Tenth Circuit’s two-part test. Although the elements
are similar, it appears that the Tenth Circuit requires more specific government involvement in
the knowledge or the participation of the search.20 For review, the two-part test in the Tenth
Circuit is “1) whether the government knew of and acquiesced in the intrusive conduct, and 2)
whether the party performing the search intended to assist law enforcement efforts or to further
his own ends.”21
As to the first element of the test, the majority of the cases previously considered by the
Tenth Circuit involved a government agent present at the time the private party performed the
search. With the exception of one case, the Tenth Circuit concluded that the private party’s
search did not implicate Fourth Amendment principles because the government agent merely
acted as a witness and did not encourage or instigate the search.22 Thus, generally, even though a
government agent was present at the search, the private party’s search remained private and not
one on behalf of the government.
20

See, e.g, Smythe, 84 F.3d at 1243 (requiring under the first element of the test that the government
affirmatively encourage or instigate the action). See also United States v. Pervaz, 118 F.3d 1, 6 (1st Cir. 1997)
(noting the Tenth Circuit’s standard for determining government action and stating that “[w]e think that any specific
‘standard’ or ‘test’ is likely to be oversimplified or too general to be of help, and that all of the factors mentioned by
the other circuits may be pertinent in different circumstances . . . .”).
21

Souza, 223 F.3d at 1201.

22

See Smythe, 84 F.3d at 1243 (determining that a bus station’s employee’s search was a private one
because although police were present they did not encourage, assist, or touch the package in any way and the
employee had an independent basis for opening the package); United States v. Leffall, 82 F.3d 343, 349 (10th Cir.
1996) (finding that an airline employee’s opening of a package, while a police officer acted as a witness, did not
amount to government action because the officer did not encourage the search and the airline employee acted in his
employer’s interest in opening the package). See also Benoit, 713 F.3d at 9-10 (concluding that the first “search,”
one without a police officer present, was a private one because there was no knowledge or acquiescence by the
government and the second search, one with a police officer present, was not a government search because the
officer did not assist, encourage, or direct the private party in showing the video).
In United States v. Souza, the Tenth Circuit determined that a search by a UPS employee was in reality a
government search because the DEA agents present at the scene identified the item to be searched, encouraged the
employee to open the item several times, and then helped the employee open the item by cutting open the box to
look at its contents. Souza, 223 F.3d at 1201-02.

-1373a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 14 of 22

In United States v. Poe,23 a government agent was not present when bounty hunters
entered a residence and discovered illegal items.24 The Tenth Circuit dismissed the defendant’s
argument that state involvement occurred because the state of Oklahoma was involved in the bail
bonds industry and conferred the power of arrest to bounty hunters.25 The court noted that
“involvement in the bail bonds industry is insufficient to satisfy this inquiry; we require
knowledge of or acquiescence in the challenged search.”26 Thus, the Tenth Circuit found that
“after-the-fact involvement of the police does not implicate the Fourth Amendment.”27
In this case, there was no government agent present at the time NCMEC conducted its
search. NCMEC does not have any law enforcement employees. Law enforcement was not
involved in the processing of the CyberTipline report. Law enforcement did not, and cannot,
become involved until the report is made available through NCMEC’s virtual private network.
And although NCMEC knows when the reports have been reviewed or downloaded by law
enforcement agencies, NCMEC does not know anything more about when, or if, law
enforcement agencies decide to investigate the report. There is accordingly no evidence that a
government agent affirmatively encouraged, initiated, or instigated NCMEC’s review of AOL’s
report.
Similar to the Poe case, a government agent did not know of or directly participate in
NCMEC’s review of AOL’s report. It was only after NCMEC’s review and upload of the

23

556 F.3d 1113.

24

Id. at 1118-19.

25

Id. at 1124.

26

Id. (emphasis in original).

27

Id.

-1474a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 15 of 22

emailed file that a government agent, SA Moore, became involved in the case. And although 18
U.S.C. § 2258A(c)(1) requires NCMEC to forward “each report made under subsection (a)(1) to
any appropriate law enforcement agency designated by the Attorney General under subsection
(d)(2),” the mere fact that a statute requires reporting of illegal conduct to law enforcement does
not demonstrate government control.28 As noted above, compliance with a reporting statute is an
insufficient basis for finding knowledge of or acquiescence of the government in the challenged
search.
With regard to the second part of the test,29 the evidence demonstrates that NCMEC is a
private, non-profit corporation with the mission of reuniting families with missing children,
reducing child sexual exploitation, and preventing child victimization. NCMEC operates its
CyberTipline to provide the public a way to report suspected child sexual exploitation.
Although NCMEC’s CyberTipline also benefits law enforcement, the Court must determine
whether the private party had a “legitimate, independent motivation” in performing the search.30
And the Court answers this question in the affirmative. Mr. Shehan testified that the
CyberTipline was created to provide a central location to report information regarding child
sexual exploitation. And although CyberTipline’s reports are provided to law enforcement and
ultimately helps law enforcement in combatting child pornography, Mr. Shehan stated that
NCMEC operates the CyberTipline to provide a community service and to protect children.
28

See, e.g., Poe, 556 F.3d at 1124 (noting that the state’s involvement in the bail bonds industry was
insufficient to establish knowledge and acquiescence).
29

Both prongs of the test must be met to establish a government search. Souza, 223 F.3d at 1201.
Although the Court has found that Defendant cannot meet the first prong, the Court will also address the second
prong.
30

See Poe, 556 F.3d at 1124 (“We do not inquire if the police benefitted from the private conduct, but if the
[private party] had a ‘legitimate, independent motivation’ to conduct the search.”) (citation omitted).

-1575a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 16 of 22

Indeed, NCMEC’s stated mission is to help reunite families with missing children, reduce child
sexual exploitation, and prevent child victimization. Mr. Shehan also stated that the information
reported through the CyberTipline helps NCMEC’s prevention and educational department.
NCMEC, in analyzing the reports, can identify trends and thus tailor its child exploitation
prevention messages to the general public. This testimony compels a finding that NCMEC has a
legitimate, independent basis in operating the CyberTipline and is contrary to the Keith court’s
conclusion that the NCMEC’s CyberTipline serves no private purpose separate from assisting
law enforcement.31
In addition, it appears as though NCMEC would have conducted the search even if law
enforcement did nothing with the information which further demonstrates a legitimate,
independent motivation for NCMEC’s search.32 Mr. Shehan testified that although NCMEC
knows when the reports have been reviewed or downloaded by law enforcement agencies,
NCMEC does not know whether law enforcement agencies decide to investigate the report.
Thus, the second part of the test is not met. Under the totality of the circumstances, the Court
concludes that NCMEC’s search is not a government search and does not implicate Fourth
Amendment principles.
2. Even if the Court did consider NCMEC to be a state actor, NCMEC’s actions
did not expand AOL’s search in a constitutionally significant way.
Alternatively, even if the Court were to agree with Defendant that NCMEC should be
considered a government actor, the Court would still have to consider whether NCMEC’s
conduct is subject to Fourth Amendment principles. Two United States Supreme Court cases are
31

Keith, 2013 WL 5918524, at *6.

32

Poe, 556 F.3d at 1124 (noting that the private party “would have conducted the search even if the police
had not responded to their call.”) (quotation marks and citation omitted).

-1676a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 17 of 22

relevant to the discussion. In Walter v. United States,33 a package containing 8-millimeter film
was mistakenly delivered to a private company.34 The employees of the private company opened
the package and found boxes of film which had labeling on its side, suggesting obscene material
on the film.35 The private party attempted to view the film by holding it to the light, but they
were unsuccessful and then called the FBI.36 After the FBI picked up the package, FBI agents
viewed the films with a projector.37 A plurality of the court determined that the private party’s
search only revealed boxes with labels suggesting that those boxes may contain obscene material,
but the FBI’s viewing of the film significantly expanded the search and must be characterized as
a separate search.38 Because the FBI significantly expanded the private party’s search, the
plurality concluded that the government’s search violated the Fourth Amendment.39
The other relevant case is United States v. Jacobsen.40 In that case, a private party
(FedEx) opened a box that had been damaged during transport and discovered what appeared to
be illegal drugs.41 The private party then put the contents of the box back inside and contacted
the DEA.42 The DEA then opened the box and removed the illegal drugs.43 The United States

33

447 U.S. 649 (1980).

34

Id. at 651.

35

Id. at 651-52.

36

Id. at 652.

37

Id.

38

Id. at 657.

39

Id. at 657-58.

40

466 U.S. 109 (1984).

41

Id. at 111.

42

Id.

-1777a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 18 of 22

Supreme Court found that the government did not perform a search to which the Fourth
Amendment was applicable because the private party had already performed the search and the
government did not learn anything that had not been previously learned by the private party.44
The court noted that to determine whether the Fourth Amendment is applicable to the
government’s search after a private party initially conducts the search, a court must consider the
degree to which the government’s conduct exceeded the private party’s search.45
The Court concludes that the facts in this case are more analogous to the facts in
Jacobsen than the facts in Walter.46 The key issue is determining the degree to which NCMEC’s
actions exceeded the scope of AOL’s search. In this case, a hash value is significantly different
than a label on a file. A label does not tell you anything about the file—except for what the file
may contain. In contrast, a hash value is much more specific. As noted above, a hash value is
derived from a specific digital file and is an alphanumeric sequence that is unique to that digital
file. Any identical copy of that file will have exactly the same hash value as the original, but any
alteration of the file, including even a change of one or two pixels, would result in a different
hash value.

AOL only retains a database of hash values already associated with child

pornography. AOL’s discovery of an email containing a hash value that matched its database of

43

Id. at 111-12.

44

Id. at 117 (“The Fourth Amendment is implicated only if the authorities use information with respect to
which the expectation of privacy had not already been frustrated.”).
45

Id. at 115 (“The additional invasions of respondents’ privacy by the government agent must be tested by
the degree to which they exceeded the scope of the private search.”) (relying on Walter, 447 U.S. 649).
46

The Court recognizes that, in Keith, the District of Massachusetts reached the opposite conclusion. See
Keith, 2013 WL 5918524, at *8 (finding that Jacobsen was inapposite and Walter was the better analogy because
NCEMC expanded the review because AOL’s matching of hash values “does not itself convey any information
about the contents of the file.”). For the reasons stated above, the Court disagrees with the Keith court’s reasoning
about AOL’s hash values.

-1878a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 19 of 22

hash values, therefore, would convey that the file contains child pornography. NCMEC, in
viewing the hashed file, did not learn anything additional that had not been previously learned by
AOL. Thus, the opening of the file by NCMEC did not exceed the scope of AOL’s search to the
degree that it would be constitutionally significant. Accordingly, even if the Court considers
NCMEC’s search a government search, the Fourth Amendment would remain inapplicable to its
conduct.
Finally, even if NCMEC’s opening of the file could be considered an additional intrusion,
the Court would still have to consider whether that intrusion/search violated Defendant’s Fourth
Amendment rights.

In Jacobsen, the Supreme Court considered whether the “additional

intrusion” of the FBI performing a field test on the white powder, which “exceeded the scope of
the private search,” was an unlawful search or seizure under the Fourth Amendment.47 The court
concluded that the chemical test that “merely disclose[d] whether or not a particular substance
[was] cocaine d[id] not compromise any legitimate interest in privacy.”48 The court also stated
that “government conduct that can reveal whether a substance is cocaine, and no other arguably
‘private’ fact, compromises no legitimate privacy interest.”49 Here, the “field test” had already
been performed by AOL when its IDFP identified the hash value (child pornography) in
Defendant’s email. NCMEC’s opening of the file would simply confirm that the file contains
child pornography (which is illegal), and the opening of the file would not implicate any other
legitimate privacy interest.
47

Jacobsen, 466 U.S. at 122.

48

Id. at 123. See also United States v. Villa, 348 F. App’x 376, 378 (10th Cir. 2009) (noting that “[t]here is
no legitimate interest in possessing illegal substances; therefore, police conduct that only reveals the presence of
illegal substances does not ‘compromise any legitimate interest in privacy.’ ”) (citing Jacobsen, 466 U.S. at 123).
49

Id.

-1979a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 20 of 22

In sum, the Court concludes that AOL’s search was not a government search.

In

addition, NCMEC’s search was not a government search. And, alternatively, even if NCMEC’s
search could be considered a government search, NCMEC’s search did not exceed the scope of
AOL’s search in such a way that would be constitutionally significant. Accordingly, the Court
denies Defendant’s motion to suppress Defendant’s email and its attachments.
B. Suppression of Defendant’s Statements
Defendant asserts that he should have been given a Miranda warning when he was
questioned at work by government agents because the meeting was a custodial interrogation.
“For Miranda’s protections to apply, custodial interrogation must be imminent or presently
occurring.”50 “Miranda is therefore only applicable when (1) the suspect is in custody, and (2)
any questioning meets the legal definition of interrogation.”51

To determine whether an

individual is in “custody,” an individual “must be under formal arrest or have his freedom of
action . . . curtailed to a degree associated with formal arrest.”52 The “custody” determination is
an objective one, and the inquiry is “whether a reasonable person in the suspect’s position would
have understood his situation . . . as the functional equivalent of formal arrest.”53 “To determine
whether a law enforcement officer engaged in “interrogation,” the court “must inquire whether
law enforcement officials should have known that their words or actions—whether framed as a

50

United States v. Cash, 733 F.3d 1264, 1276 (10th Cir. 2013) (citation omitted).

51

Id. at 1276-77 (quotation marks and citation omitted).

52

Id. at 1277 (quotation marks and citation omitted).

53

United States v. Hudson, 210 F.3d 1184, 1190 (10th Cir. 2000) (quotation marks and citation omitted).

-2080a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 21 of 22

question or not—were reasonably likely to elicit an incriminating statement.”54 This inquiry is
also objective, and the focus is not on the subjective intent of the officer.55
Initially, Defendant asserted in his brief that he was told that he would be arrested if he
did not cooperate. At the hearing, the evidence demonstrated otherwise. Special Agent Moore
recorded the meeting, and SA Moore told Defendant at the very beginning of the meeting:
“You’re not under arrest. We’re not here to arrest you or anything. But I’d like to ask you why
would you think we would be here talking to you.”56 SA Moore then told Defendant that they
had just conducted a search warrant at his house, Defendant then said that he had been “getting
bored,”57 and he had been trading pictures on the internet. He said that “he knew what it is, but
he didn’t like to say it.”58

After the female agent left the room, Defendant stated “child

pornography” without any prompting.

Defendant also explained what he believed child

pornography was.
Throughout the approximate hour-long meeting, Defendant was told several times that he
was not under arrest. Finally, SA Moore told Defendant at the end of the interview that he was
not under arrest. The meeting was conversational, and it was not the functional equivalent of a
formal arrest. Thus, the meeting was not a custodial interrogation, and the Court denies
Defendant’s motion to suppress his statements to law enforcement officers.

54

Cash, 733 F.3d at 1277.

55

Id.

56

Government’s Exhibit 4, Audio Interview.

57

Id.

58

Id.

-2181a

Case 6:13-cr-10176-EFM Document 37 Filed 07/01/14 Page 22 of 22

IT IS THEREFORE ORDERED that Defendant Walter Ackerman’s Motion to
Suppress (Doc. 13) is hereby DENIED.
IT IS SO ORDERED.
Dated this 1st day of July, 2014.

ERIC F. MELGREN
UNITED STATES DISTRICT JUDGE

-2282a

$SSHOODWH&DVH'RFXPHQW'DWH)LOHG3DJH

81,7('67$7(6&28572)$33($/6
($/6
(
)257+(7(17+&,5&8,7
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
B
BBB
81,7('67$7(62)$0(5,&$

),/('
8QLWHG6WDWHV&RXUWRI$SSHDOV
7HQWK&LUFXLW

0DUFK
&KULVWRSKHU0:ROSHUW
&OHUNRI&RXUW

3ODLQWLII$SSHOOHH
1R
'&1R&5()0 
'.DQ 

Y
:$/7(5$&.(50$1
'HIHQGDQW$SSHOODQW

(/(&7521,&)5217,(5
)281'$7,21HWDO
$PLFL&XULDH

BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
25'(5
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
%HIRUH+$57=0$7+(621DQG(,'&LUFXLW-XGJHV
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
$SSHOODQW¶VSHWLWLRQIRUUHKHDULQJLVGHQLHG
7KHSHWLWLRQIRUUHKHDULQJHQEDQFZDVWUDQVPLWWHGWRDOORIWKHMXGJHVRIWKHFRXUW
ZKRDUHLQUHJXODUDFWLYHVHUYLFH$VQRPHPEHURIWKHSDQHODQGQRMXGJHLQUHJXODU
DFWLYHVHUYLFHRQWKHFRXUWUHTXHVWHGWKDWWKHFRXUWEHSROOHGWKDWSHWLWLRQLVDOVRGHQLHG
(QWHUHGIRUWKH&RXUW

&+5,6723+(50:2/3(57&OHUN
$SSHQGL[(
D

§ 2258A. Reporting requirements of electronic communication..., 18 USCA § 2258A

United States Code Annotated
Title 18. Crimes and Criminal Procedure (Refs & Annos)
Part I. Crimes (Refs & Annos)
Chapter 110. Sexual Exploitation and Other Abuse of Children (Refs & Annos)
This section has been updated. Click here for the updated version.
18 U.S.C.A. § 2258A
§ 2258A. Reporting requirements of electronic communication
service providers and remote computing service providers
Effective: October 13, 2008 to December 20, 2018
(a) Duty to report.-(1) In general.--Whoever, while engaged in providing an electronic communication service or a remote computing service
to the public through a facility or means of interstate or foreign commerce, obtains actual knowledge of any facts or
circumstances described in paragraph (2) shall, as soon as reasonably possible-(A) provide to the CyberTipline of the National Center for Missing and Exploited Children, or any successor to the
CyberTipline operated by such center, the mailing address, telephone number, facsimile number, electronic mail address of,
and individual point of contact for, such electronic communication service provider or remote computing service provider;
and
(B) make a report of such facts or circumstances to the CyberTipline, or any successor to the CyberTipline operated by
such center.
(2) Facts or circumstances.--The facts or circumstances described in this paragraph are any facts or circumstances from
which there is an apparent violation of-(A) section 2251, 2251A, 2252, 2252A, 2252B, or 2260 that involves child pornography; or
(B) section 1466A.
(b) Contents of report.--To the extent the information is within the custody or control of an electronic communication service
provider or a remote computing service provider, the facts and circumstances included in each report under subsection (a)(1)
may include the following information:
(1) Information about the involved individual.--Information relating to the identity of any individual who appears to have
violated a Federal law described in subsection (a)(2), which may, to the extent reasonably practicable, include the electronic

Appendix F
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

84a

1

§ 2258A. Reporting requirements of electronic communication..., 18 USCA § 2258A

mail address, Internet Protocol address, uniform resource locator, or any other identifying information, including self-reported
identifying information.
(2) Historical reference.--Information relating to when and how a customer or subscriber of an electronic communication
service or a remote computing service uploaded, transmitted, or received apparent child pornography or when and how
apparent child pornography was reported to, or discovered by the electronic communication service provider or remote
computing service provider, including a date and time stamp and time zone.
(3) Geographic location information.-(A) In general.--Information relating to the geographic location of the involved individual or website, which may include
the Internet Protocol address or verified billing address, or, if not reasonably available, at least 1 form of geographic
identifying information, including area code or zip code.
(B) Inclusion.--The information described in subparagraph (A) may also include any geographic information provided to
the electronic communication service or remote computing service by the customer or subscriber.
(4) Images of apparent child pornography.--Any image of apparent child pornography relating to the incident such report
is regarding.
(5) Complete communication.--The complete communication containing any image of apparent child pornography,
including-(A) any data or information regarding the transmission of the communication; and
(B) any images, data, or other digital files contained in, or attached to, the communication.
(c) Forwarding of report to law enforcement.-(1) In general.--The National Center for Missing and Exploited Children shall forward each report made under subsection
(a)(1) to any appropriate law enforcement agency designated by the Attorney General under subsection (d)(2).
(2) State and local law enforcement.--The National Center for Missing and Exploited Children may forward any report
made under subsection (a)(1) to an appropriate law enforcement official of a State or political subdivision of a State for the
purpose of enforcing State criminal law.
(3) Foreign law enforcement.--

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 2258A. Reporting requirements of electronic communication..., 18 USCA § 2258A

(A) In general.--The National Center for Missing and Exploited Children may forward any report made under subsection
(a)(1) to any appropriate foreign law enforcement agency designated by the Attorney General under subsection (d)(3),
subject to the conditions established by the Attorney General under subsection (d)(3).
(B) Transmittal to designated Federal agencies.--If the National Center for Missing and Exploited Children forwards
a report to a foreign law enforcement agency under subparagraph (A), the National Center for Missing and Exploited
Children shall concurrently provide a copy of the report and the identity of the foreign law enforcement agency to-(i) the Attorney General; or
(ii) the Federal law enforcement agency or agencies designated by the Attorney General under subsection (d)(2).
(d) Attorney General responsibilities.-(1) In general.--The Attorney General shall enforce this section.
(2) Designation of Federal agencies.--The Attorney General shall designate promptly the Federal law enforcement agency
or agencies to which a report shall be forwarded under subsection (c)(1).
(3) Designation of foreign agencies.--The Attorney General shall promptly-(A) in consultation with the Secretary of State, designate the foreign law enforcement agencies to which a report may be
forwarded under subsection (c)(3);
(B) establish the conditions under which such a report may be forwarded to such agencies; and
(C) develop a process for foreign law enforcement agencies to request assistance from Federal law enforcement agencies
in obtaining evidence related to a report referred under subsection (c)(3).
(4) Reporting designated foreign agencies.--The Attorney General shall maintain and make available to the Department
of State, the National Center for Missing and Exploited Children, electronic communication service providers, remote
computing service providers, the Committee on the Judiciary of the Senate, and the Committee on the Judiciary of the House
of Representatives a list of the foreign law enforcement agencies designated under paragraph (3).
(5) Sense of Congress regarding designation of foreign agencies.--It is the sense of Congress that-(A) combating the international manufacturing, possession, and trade in online child pornography requires cooperation
with competent, qualified, and appropriately trained foreign law enforcement agencies; and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 2258A. Reporting requirements of electronic communication..., 18 USCA § 2258A

(B) the Attorney General, in cooperation with the Secretary of State, should make a substantial effort to expand the list
of foreign agencies designated under paragraph (3).
(6) Notification to providers.--If an electronic communication service provider or remote computing service provider
notifies the National Center for Missing and Exploited Children that the electronic communication service provider or remote
computing service provider is making a report under this section as the result of a request by a foreign law enforcement
agency, the National Center for Missing and Exploited Children shall-(A) if the Center forwards the report to the requesting foreign law enforcement agency or another agency in the same
country designated by the Attorney General under paragraph (3), notify the electronic communication service provider or
remote computing service provider of-(i) the identity of the foreign law enforcement agency to which the report was forwarded; and
(ii) the date on which the report was forwarded; or
(B) notify the electronic communication service provider or remote computing service provider if the Center declines to
forward the report because the Center, in consultation with the Attorney General, determines that no law enforcement
agency in the foreign country has been designated by the Attorney General under paragraph (3).
(e) Failure to report.--An electronic communication service provider or remote computing service provider that knowingly
and willfully fails to make a report required under subsection (a)(1) shall be fined-(1) in the case of an initial knowing and willful failure to make a report, not more than $150,000; and
(2) in the case of any second or subsequent knowing and willful failure to make a report, not more than $300,000.
(f) Protection of privacy.--Nothing in this section shall be construed to require an electronic communication service provider
or a remote computing service provider to-(1) monitor any user, subscriber, or customer of that provider;
(2) monitor the content of any communication of any person described in paragraph (1); or
(3) affirmatively seek facts or circumstances described in sections (a) and (b).
(g) Conditions of disclosure information contained within report.--

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

§ 2258A. Reporting requirements of electronic communication..., 18 USCA § 2258A

(1) In general.--Except as provided in paragraph (2), a law enforcement agency that receives a report under subsection (c)
shall not disclose any information contained in that report.
(2) Permitted disclosures by law enforcement.-(A) In general.--A law enforcement agency may disclose information in a report received under subsection (c)-(i) to an attorney for the government for use in the performance of the official duties of that attorney;
(ii) to such officers and employees of that law enforcement agency, as may be necessary in the performance of their
investigative and recordkeeping functions;
(iii) to such other government personnel (including personnel of a State or subdivision of a State) as are determined to
be necessary by an attorney for the government to assist the attorney in the performance of the official duties of the
attorney in enforcing Federal criminal law;
(iv) if the report discloses a violation of State criminal law, to an appropriate official of a State or subdivision of a State
for the purpose of enforcing such State law;
(v) to a defendant in a criminal case or the attorney for that defendant, subject to the terms and limitations under section
3509(m) or a similar State law, to the extent the information relates to a criminal charge pending against that defendant;
(vi) subject to subparagraph (B), to an electronic communication service provider or remote computing provider if
necessary to facilitate response to legal process issued in connection to a criminal investigation, prosecution, or postconviction remedy relating to that report; and
(vii) as ordered by a court upon a showing of good cause and pursuant to any protective orders or other conditions that
the court may impose.
(B) Limitations.-(i) Limitations on further disclosure.--The electronic communication service provider or remote computing service
provider shall be prohibited from disclosing the contents of a report provided under subparagraph (A)(vi) to any person,
except as necessary to respond to the legal process.
(ii) Effect.--Nothing in subparagraph (A)(vi) authorizes a law enforcement agency to provide child pornography images
to an electronic communications service provider or a remote computing service.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

§ 2258A. Reporting requirements of electronic communication..., 18 USCA § 2258A

(3) Permitted disclosures by the National Center for Missing and Exploited Children.--The National Center for Missing
and Exploited Children may disclose information received in a report under subsection (a) only-(A) to any Federal law enforcement agency designated by the Attorney General under subsection (d)(2);
(B) to any State, local, or tribal law enforcement agency involved in the investigation of child pornography, child
exploitation, kidnapping, or enticement crimes;
(C) to any foreign law enforcement agency designated by the Attorney General under subsection (d)(3); and
(D) to an electronic communication service provider or remote computing service provider as described in section 2258C.
(h) Preservation.-(1) In general.--For the purposes of this section, the notification to an electronic communication service provider or a remote
computing service provider by the CyberTipline of receipt of a report under subsection (a)(1) shall be treated as a request to
preserve, as if such request was made pursuant to section 2703(f).
(2) Preservation of report.--Pursuant to paragraph (1), an electronic communication service provider or a remote computing
service shall preserve the contents of the report provided pursuant to subsection (b) for 90 days after such notification by
the CyberTipline.
(3) Preservation of commingled images.--Pursuant to paragraph (1), an electronic communication service provider or a
remote computing service shall preserve any images, data, or other digital files that are commingled or interspersed among
the images of apparent child pornography within a particular communication or user-created folder or directory.
(4) Protection of preserved materials.--An electronic communications service or remote computing service preserving
materials under this section shall maintain the materials in a secure location and take appropriate steps to limit access by
agents or employees of the service to the materials to that access necessary to comply with the requirements of this subsection.
(5) Authorities and duties not affected.--Nothing in this section shall be construed as replacing, amending, or otherwise
interfering with the authorities and duties under section 2703.
CREDIT(S)
(Added Pub.L. 110-401, Title V, § 501(a), Oct. 13, 2008, 122 Stat. 4243.)
18 U.S.C.A. § 2258A, 18 USCA § 2258A
Current through P.L. 116-150.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

